      Department of Health and Human Sefices

               OFFICE OF

          INSPECTOR GENEML





    The NCH Consensus Development Program

      Dissetiation of Findin~ through Medical School
               ContinuingEducation Activities




L                      Februiq   MM
                       OFFICE OF INSPECrOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Setices’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of pro~am, and management problems, and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing setices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
.%dits CXwninethe Ferformancc of HHS programs and/or its grantees am! contrr ‘ton h
carrying out their respective responsibilities and are intended to provide inciepermmt
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Offkx of Investigations (01) conducts criminal, civd, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Boston regional
office under the direction of Mark R. Yessian, Ph.D., Regional Inspector General and Martha
B. Kvaal, Deputy Regional Inspector General. Project stati.

REGION                                              HEADQUARTERS

Dana Miller, I+oject Leader                         Mary Beth Clarke, ProgramSpecialkt
Timothy Corbett, Lead Anatyst


For diitiod   *oftimptie                 contaddu
                                                B@on-o@e                 Qvte-at
(617) 565-1050, or by Fax at (617) 565-3751.
          Department of Health and Human Services

                   OFFICE OF

              INSPECTOR GENERAL





      The NE-I Consensus Development Pro~ram
                                                       w




          Dissetiation  of Findings through Medical School
                   tintinutig Education Activities




I
I
I
                     February l=   mI-ol-91-o1760



    –——
               EXECUTIVE                       SUMMARY

PURPOSE

To evaluate the impact of the efforts of the National Institutes of Health to
disseminate Consensus Development Program information through medical school
continuing education activities.

BACKGROUND

In response to growing concerns about the effectiveness of some medical procedures
and variations in medical practice, the National Institutes of Health (NIH) created the
Consensus Development Program (CDP) in 1977. The Program brings together non-
governmental pane!s to assess the safety> efficacy, and appropriateness of e+sting and
emerging medical tecnrmlogies. ISach panei presents its con~i~si~il~ in the i~ii~i ui a
Consensus Statement, which is widely disseminated by NIH to medical. professionals
and the public through direct mailings, publication in journals, and other methods.

The potential importance of the Consensus Program has increased as concerns about
cost and quality in health care have intensified. Recent evaluations, however, have
pointed out potential vulnerabilities in the Program--including questions about its
success in disseminating Conference findings. A 1989 Rand report suggested that
continuing medical education (CME) activities could be a “critical dissemination
vehicle,” and recommended that a survey of directors of continuing education
regarding the use of information from the Consensus Program would be valuable.

We conducted such an examination of continuing education programs at U.S. medical
schools, which represent a major resource for CME. This report is based primarily
upon a survey of continuing education directors and chairs of departments of family
medicine, neurology, and oncology at all U.S. medical schools. We inquired about
general familiarity with the Consensus Program, awareness of specific Statements, use
of Consensus information in continuing education activities, and opinions about the
Program. We did not attempt to assess changes in medical practice resulting from
either continuing education activities or the Consensus Program itself.

FINDINGS

Fifly-two pexent of medical school &pa~nt       chaih reported having sponsored a
continuing education activity thut addkrsed the @dings of a recent NIH Consensus
Ck3nference.

  �	   Chairs of family medicine reported more limited use of CDP information in
       continuing education activities than did chairs of neurology or oncology: 30
       percent of family medicine chairs, 47 percent of neurology chairs, and 77
       percent of oncology chairs reported such use.


                                           i
       �	   NIH Consensus findings have been addressed in a variety of medical school
            continuing education formats; the most common have been grand rounds.

       �	   Of those department chairs who reported use of NIH Consensus information in
            their continuing education activities, 81 percent reported that these were
            targeted to in-house faculty, and 72 percent that these were targeted to
            practicing physicians horn outside the medical school setting.

    Several factons hhder &    dirsemindion and acceptance of CDP biifonnation and
    incorpomtion of that information into conhhuing education acdvities.

       �	   Limited familiarity with the Consensus Development Promam. Sixteen percent
            of department chairs knew nothing about the CDP; an additional 17 percent
            were aware of the Program but knew little about it. Family medicine chairs
            reuorted particularly limited familiarity with the Program: 27 percent had
            rwwr ne~xi :~f i: and another L5 percent were aware Lu, .-.~i~ ,- ,,,. ./Jt it.“

      �	    Unsuitable format of the Consensus Statements for continuing education
            activities. Only 33 percent of those department chairs who were familiar with
            the CDP rated the format in which Conference findings are presented as very
            appropriate for continuing education. Respondents suggested several types of
            materials that would more readily facilitate the use of Conference findings in
            their continuing education activities, including slides, overheads, and curriculum
            materials for short, small-group activities.

      �	    Concerns about the Consensus Development Program itself. Most medical
            school department chairs voiced general respect for the Program. Nevertheless,
            a number of specific concerns were voiced by respondents familiar with the
            Program about limitations to its effectiveness and usefulness, including
            questions about the appropriateness of panelists and speakers, the practicality
            and directiveness of the Statements, and the adequacy of CDP procedures. A
            few respondents expressed fundamental objections to the use of consensus
            methods to address controversies in medicine. These concerns, whether
            reflective of perceived or actual weaknesses in the CDP, represent a serious
            barrier to wider dissemination and acceptance of NIH Consensus findings.


    RECOMMENDATIONS

    The NIH has demonstrated a firm commitment to ongoing evaluation and
    improvement of the Consensus Development Program. As NIH continues such
    efforts, it should aim to maximize the potential for medical school continuing
    education as a vehicle for disseminating Consensus findings. In particular:




                                                ii


—
l’%eNH shoukl tdx step to tiease      warerless of the CDP among those responsible for
continuing medical hation.    IIw NH should make qxxid @om to reach tie         who
qumsor continuing education actiwkies for generul and f-physicians.

In this effort, NIH should maximize the effectiveness of direct-mailing efforts by
tailoring such mailings to department chairs and continuing education directors in their
capacity as educators, and by encouraging them to cover Consensus findings in their
continuing education activities. The NIH should work with medical school continuing
education organizers to plan appropriate dissemination strategies. In this effort, NIH
could also work with organizations other than medical schools, including relevant
specialty societies and academic groups.

The NIH shouki Ment#J more @ective ways of encouraging the ihcoqoratibn of
ConseIUUSjindihgs into continuing educatidn activdk

The NIH should expiore ways of packaging and disseminating Comenstis i.,.~ings that
would more readily facilitate their use in continuing education activities, including the
production of slides, overheads, or other curriculum materials. The NIH should also
conduct focus-group discussions with key audiences of Consensus findings, including
medical school department chairs and continuing education directors, to learn their
perspectives on format issues. The NIH could use its future research efforts as
opportunities to examine the attitudes and practices of other types of continuing
education sponsors.

171eIWHshouMstrengthe?l h#omto          un&m@ul and &es          basic concerns about the
Conwruus Devekpnent l+vgram

Because no dissemination efforts will be successful in reaching and influencing people
with basic concerns about the effectiveness and usefulness of the Program’s methods,
NIH should strengthen its efforts to understand and address such concerns. The NIH
could use focus groups or informal working groups of department chairs and
continuing education directors, and other key audiences, to learn about and address
these concerns. As first steps, NIH should identi$ and test better ways of involving a
wider range of people in the planning stage of upcoming Consensus Conferences to
maximize acceptance of the outcomes, and should address concerns about panel and
speaker selection.

AGENCY COMMENTS

We solicited and received comments on a draft of this report from the Public Health
Service (PHS). The PHS concurred with our recommendations and identified several
activities that NIH currently has underway or has planned that address these issues.
These include the publication of a revised statement of operating guidelines and
procedures, efforts to identi~ new ways of exploiting CME as an avenue for
dissemination, and continuing evaluation of the procedures and impact of the CDP.



                                           ...
                                           Ill
      The PHS also suggested that criticisms of the Consensus Program by some survey
      respondents may be based on incomplete or out-of-date information. We continue to
      believe that these concerns merit serious attention by NIH, and have modified the text
      to put these issues into clearer perspective. The complete text of the PHS comments
      appears in appendix E.




                                               iv


-——
                         TABLE                    OF CONTENTS


                                                                                                                      PAGE

m~SUMMARY                                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODUCITON               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS

.�    Use of NIHConsensus findingsin medical school

      continuing education activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


e�   Limi[s ?0 the w’iderd~’~emfr”+{nn and acceptance ofCDP
     information and iis incorporation into continuing education                            ~Cth7itit5S:


     �       Limited familiarity w”th the Consensus Development                            Program         . . . . . . . . . 8


     �	     Unsuitable format of the Consensus Statements for

            continuing education activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


     �      Concerns about the Program’s effectiveness andusefilness                                . . . . . . . . . . . 11



RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...15


AGENCY CO MMENm                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...19


APPENDICES


     A Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-l


     B Continuing Medical Education:                   Background          . . . . . . . . . . . . . . . . . . . . . . B-1


     c    Summary of Department              Chairs’ Survey Responses                , . . . . . . . . . . . . . . . . C-1


     D Summary of CMEDirectors’                   Sumey Responses              . . . . . . . . . . . . . . . . . . . . D-1


     E PHSComments             onthe      Draft Repofi . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-1


     F Notes      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . F-1

                           INTRODUCTION

PURPOSE

To evaluate the impact of the efforts of the National Institutes of Health to
disseminate Consensus Development Program information through medical school
continuing education activities.

BACKGROUND

Health-care technology assessment and N~

In recent years, health-care providers, policy makers, and the public have expressed
incl~asin~ ccncern about rising ccsts. v~riaticms in medical practice. and overuse ~f
certain mechcal procedures. These concerns have spurred greater interest in the
evaluation of the appropriateness and effectiveness of existing and emerging health-
care technologies, including drugs, devices, and procedures.

The Congress determined in the late 1970’s that the National Institutes of Health
(NIH), as the principal biomedical research institution in the nation, should play a role
in this arena. The NIH director at the time testified that “NIH and the rest of the
scientific community must assume more responsibility for the effect of research on the
quality of health care delivered. The need for accelerating the transfer of new
technology across the ‘interface’ between biomedical research and the health care
community and systems is a major issue.”1

The Consensus Development Program

The Consensus Development Program (CDP) was created as the focus of NIH’s
technology assessment efforts. The CDP aims “to promote the timely incorporation of
beneficial medical innovations into clinical practice, encourage the abandonment of
obsolete technologies in favor of ones that are more efficacious or safe, discourage the
adoption of technologies that have little value, and form public policy choices that
encourage or discourage the use of certain medical technologies.”2

The Consensus Program employs a group-judgment process that brings together non-
governmental panels to address the safety and efficacy of controversial existing or
emerging medical technologies .3 At the end of each 2-1/2 day Consensus Conference,
the panel crafts a Consens~s Statement presenting its finding; and conclusions.

Reaching dktors:   Dksemihation of CDP information

The NIH aims to disseminate each Consensus Statement widely in order to achieve
the “maximum impact of the Statement on health care practice.”4 The NIH’s efforts
in this area reflect a recognition that “the term ‘effective dissemination’ includes the


                                             1
concept of diffusion of knowledge and information as well as the acceptance,
inculcation, and utilization of disseminated information;” the “distribution of
information alone is insufficient to ensure adoption or use.”s

Several recent evaluations of the Program have raised questions about the NIH’s
success in disseminating its findings, and have suggested the need for further research
in this area.6 These reports have noted in particular that NIH has had especially
limited success in reaching general and family physicians--an important target audience
because they both use many of the technologies evaluated by the Program and,
through the referrals they make, serve as gatekeepers who often determine the type of
care their patients will receive.’

Wdical school confining	 medical educalion advities
asavehiclefor            “
              thediw emmation   of CDPfindings

In a 1989 study of me ?UH Consensus Program, the Rand Curpurauwi ~m..+ t.ui:
continuing medical education (CME) could be a “critical dissemination vehicle” for the
Program, and recommended that it “play a more prominent role in the Program’s
dissemination strategy.”s Focus-group discussions with physicians recently conducted
by NIH likewise found that most physicians prefer face-to-face contacts as a method of
learning, and cited continuing education programs as a key source of information.g

Continuing medical education activities are sponsored by a wide variety of
organizations, and sexve as a major means for practicing doctors to keep up to date
with current knowledge about medical procedures and technologies. According to the
Accreditation Council for Continuing Medical Education, “medical schools, through
their faculty members, provide the major resource for CME in this country.”lo (See
appendix B for more information.)

Doctors in positions of leadership in medical schools and those who plan and conduct
continuing education activities seine as “switching points” for new medical information
and can be particularly influential in spreading CDP findings.11 In addition to their
role in setting the agenda for undergraduate, graduate, and continuing education at
their own institutions, department chairs often conduct continuing education activities
at their respective specialty society conferences, and are invited to speak at community
hospitals.12 As noted in the Rand report, “information may well follow a “two-step
flow” from opinion leader to follower. . . . Major communication sources may alert
specialists and academic physicians to the existence of new medical information
(eg., Consensus Conference recommendations), and this information may then ‘filter
down’ to primary care practitioners and other physicians in private practice.”13

m   n?ptm

The Rand report suggested that a survey of directors of CME regarding actual and
potential uses of NIH Consensus material would be valuable.14 This report presents
an examination of the current and potential future utilization of NIH Consensus


                                           2
findings by medical school continuing education programs. We provide information on

NIH’s efforts to reach medical school department chairs and CME directors, how

these people view the Program and its products, and the extent to which the

continuing education activities they sponsor serve as vehicles for the wider

dissemination of NIH Consensus information. We do not attempt to assess changes in

medical practice resuhing from either CME activities or the Consensus Program
itself.15
                                                                                                 .

METHODO~GY

Our primary means of data collection was a set of mail surveys of the directors of
continuing education and of the chairs of the departments or divisions of family
medicine, neurology, and oncology at all U.S. medical schools. We inquired about
general familiarity with the Consensus Program, awareness and use of seven recent
Consensus Statements. and opinions about the Pro~ram. In the findings, we focus on
the responses of department chairs, wiio are generally key m~di~tii i)pi.ilti,. ,.-..i:-i Uiid

who are more closely involved than continuing education directors in the subject
matter of their departments’ continuing education activities (see appendices C and D
for a summary of survey responses). We supplemented this information with
telephone interviews with a sample of survey respondents, discussions with NIH staff,
a review of NIH dissemination materials, a review of the literature, and discussions
with experts in the field. (See appendix A for detailed methodology.)

We conducted our review in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              3
                                             FINDINGS


FIFTY-TWO PERCENT OF MEDICAL SCHOOL DEPARTMENT CHAIRS

REPORTED HAVING SPONSORED A CO NTINUING EDUCATION ACITVITY

THAT ADDRESSED THE FINDINGS OF A RECENT NIH CONSENSUS

CONFERENCE.


We asked medical school department chairs if they had sponsored CME activities

during the previous three years on at least one of a sample of seven topic areas, and if

such activities had addressed the findings of the recent NIH Consensus Conference on

each topic.16


Fifty-two percent had sponsored a CME activity that addressed the NIH Consensus

findinw on one of the sample topics. Seventeen percent had sponsored a mlmmnt

continuing education activity, but had not addressed the NIH Conseusus rimmgs on

the topic.17 Sixteen percent had not sponsored a relevant CME activity (see table 1).



 Table 1: Use of CDP Fmdinm in CME Activities         Percentage of department chairs who
 sponsmed a recent continuing education activity on at least one of the sample topics in
 their field and the percentage of these that addreased the findings of the NIH Consensus
                                                                                                                  I
 C2mkxence on that topic

 Conducted a CME                Addressed the
 activity on at least           N-m Cklsensus
 one of the sample              Fmdiqp on that
 topkx in their field           topic

                                                              FamiIy         Neurology    oncology     Average
                                                             Medicine           Chaim        chairs
                                                               chain
                                                                  (n=S4)         (n=SS)       (n=95)    (n=267)

 Yes                            Yes”                               30%            47%          77%        52%
                                No*                                22%           20%            9%        17%
                                Don’t know                         26%            16%           4% I      15%
 No                                                               23%             17%           9%        16%


 Total

 Soumx*
  OIG swvey of medical school department chairs, November 1992

 Nom      Includes those who responded “definite~ and “prubab~ yea or no.

 Differences are statistically significant at the .05 level.





                                                            5

We also inquired as to whether department chairs were aware of continuing education

activities sponsored by their departments that had addressed the findings of additional

Consensus Conferences, other than those in our sample. Twelve percent were aware

of such additional CME activities. Of these, however, most had also addressed at least

one of the Statements in the sample; only 6 (2 percent) had not also addressed at

least one of the Statements in the sample.



Chuim of family medkine reprted mom lhnkd use of CDP tiformation in conlbuukg
educalion activdies than did chaiis of neurobgy or oncology.

We found significant variation in the reported use of Consensus information in CME

activities among the three specialty groups: 30 percent of family medicine chairs, 47

percent of neurology chairs, and 77 percent of oncology chairs reported such use (see

table 1).


We also found that neurology and oncology chairs were more definitive about their

departments’ use of CDP information in continuing education activities than were

family medicine chairs: 59 percent of oncology chairs reported that they had

sponsored relevant CME activities that had dej_initeZyaddressed CDP findings; 30

percent of neurology chairs and only 12 percent of family medicine chairs reported the

same. This may reflect both less intensive involvement in continuing education on the

part of family medicine chairs (see appendix C, table C-17), and less use of CDP

information in their continuing education activities.


We address some of the reasons for the variation in the use of Consensus information

both within and among specialty groups in our second finding, beginning on page 8.



NH Consensus fhdings have been adlikssed k a varie~ of medical school continuing
educatim formuts; the mart cornrnon have been grand mwnd.r.

In-house programs, such as grand rounds, and large-group activities were the most

common forums for CME activities that addressed NIH Consensus findings. Oncology

chairs reported significantly greater use of small-group activities, such as discussion

groups, than did neurology or family medicine chairs (see appendix C, table C-10).


A number of respondents explained how they had made use of Consensus findings in

their continuing education activities. One department chair reported that the CDP

findings had been the central topic of a regularly scheduled department session on

current topics in the field, while several noted that the findings had been addressed

only peripherally, as part of larger programs. Several indicated that Consensus

Statements have been useful in subspecialty conferences, departmental meetings, and

formal lectures. Some respondents noted that the concise nature of the Consensus

Statements makes them more appropriate for shorter, small-group discussions; they

are already “distilled beyond usefulness” for longer activities. A CME director



                                           6

proposed that they are “best used in small groups with an ‘expert’ moderator     or in

self-instruction format.”



iUedkal school continuing ea!ucation activitk addkwzn“ g NEl Conwnsus jidkgs have
been tmgeted to both in-houses@ and facully, and pructicingphysicians frvm outside
the medkal school setting.

Of those department chairs who reported addressing CDP information in their CME

activities, 89 percent noted that these activities had been targeted to residents, 81

percent to in-house faculty, and 68 percent to in-house hospital staff.


These activities also served to reach practicing doctors beyond the medical school

setting: 72 percent of department chairs reported that their activities had been

targeted to local or nonlocal practicing physicians--35 percent to practicing physicians

from outside the iucai ar~~ (see appenuix C, tabie C-11).18





                                           7

SEVERAL FACI’ORS HINDER WIDER DISSEMINATION AND ACCEPTANCE

OF CDP INFORMATION AND INCORPORATION OF THAT INFORMATION

INTO CONTINUING EDUCATION ACHWTI13.


Lhnited f~           with the Ctmsensus Development ??vgmm

Sixteen percent of department chairs knew nothing about the CDP; an additional 17

percent were aware of the Program but knew little about it.19


Family medicine chairs reported much more limited familiarity with the Program than

did oncology and neurology chairs: 27 percent of family medicine chairs, 18 percent of

neurology chairs, and only 3 percent of oncology chairs reported that they had never

heard of the Program. There was similar variation among the groups with regard to

those who were aware of the Program but knew little about it (see table 2).




 Table 2 Awareness of the CDP Percentage of medieal school CME directors and
 department chairs who were aware of the NIH Consensus Development program


                             .                                     .




 :
 Very familiar

                        -F
                                 11%
                                         EXii?i5 14%       31%         47%      31%

 Somewhat familiar,

 but not sure of all

 the details
                    48%             33%       34%         41%      36%

 Aware, but didn’t

 know much about it
             23%             25%       17%          8%      17%

 Not at all aware
               18$Z0           27%       18%          3%      16%

 Sourax OIGsuney of medicalschoolCMEdwectors anddepartmentchairs,Nmemher1992

                amongdepartmentchairsarestadstically
 Note Differences                                          at the .05level.

                                                  significant



Awareness of s~ecific Consensus Statements was more limited than ~eneral awareness
of the CDP.n ‘Again, chairs of family medicine were less likely to b: aware of
Consensus Statements relevant to their field than were other department chairs; for
example, 89 percent of oncology chairs but only 57 percent of family medicine chairs
were aware of the Statement on EarZy Stage Breast Cancer. Even many department
chairs who had sponsored continuing education activities on topics that had been
addressed by Consensus Conferences were not aware of the relevant Consensus


                                            8

Statements on those topics. For example, only 44 percent of the chairs of family

medicine who had sponsored a CME activity on gastrointestinal surgery for severe

obesity were aware of the Consensus Statement on that subject (see table 3).21




     Table 3: Awareness of Sued “ c Consensus Statement     Percentage of all responden~ and
     of tkxe who sponsored a continuing education activity that mhkssed each topiq who wxxe
     aware of each Statement
                                                                                        .




 ‘B                                                                 ~       “i;::                   ~~       “o;;;

                          i,

 I                        ‘ ‘=61      “a’~~::~:                ‘   ‘=69        “at:~=            ‘ ‘=”       ~ ‘k’t::~:z:
 Suqety for                                                .       85%                   87%             -
 Epilepsy                                                                               (n=54)

 Clinical use of  18%                             100%             67%                   79%             -
 Botulinum Toxz”n                                  (n=2)                                (n=43)

 Intravenous                                                                                       19%                       45%
 Immunoglobulin                                                                                                             (n=m)

 Adjuvant                                                                                    -    79%                       * 88%
 Therapy for                                                                                                                *
 Colon and                                                                                               �



 Rectum Cancer                                                                                                              (tt=dll]


 Early Stage                   57%                 60%                  -                    -    89%                        92%
 Breast Cancer                                    (n=35)                                                                    (n=79)


 Gastrointestinal              31%                 44%                  -

 Sugery for
 Severe Obesity                                    (n=9]


 Treatment of                  56%                 55%                  -
 Panic Disorder                                   (n=42]


 SOH      OIG suNey of medical school department chaixy Nwemher 1992

 Note   A daah (-)
                 indicatea that the group waa not aaked about that Statement.





In their written comments, a number of respondents demonstrated this limited

familiarity with the Program. One neurolo~ chair commented that he “was not aware

of the dimension of the Program; these are worthwhile goods that are insufficiently

known.” A family medicine chair noted that the CDP findings “may go unnoticed at

times.” One CME director noted that “we have never received anything from NIH,”

while another suggested that “this Program is not well recognized.” As one oncology



                                                                   9

chair remarked, “I don’t know all of the Consensus Conferences--how      could a

practicing doctor?”


Department chairs reported that their most common sources of information about the

CDP during the previous three years had been direct-mail copies of Consensus

Statements and journal publications.” Nonetheless:


   ��   25 percent reported that they had not received a Consensus Statement in the
        mail (or could not recall having received one) during the previous 3 years. This
        ranged from 8 percent of oncologists, to 36 percent of family physicians, to 39
        percent of neurologists.~

   ��   40 percent had not read a Statement in either the Journal of the American
        Medical Association (JA.MM) or a specialty journal in the previous 3 years. This
        ranged from 33 nercent of family physicians, to 38 percent of neurologists. to 48
        percwt ui oncoiog~stb.:4

Other sources of information, including colleagues, the popular media, and continuing

education activities sponsored by outside organizations, were reported by department

chairs as less important ways of hearing about the Program or specific Conferences

(see appendix C, table C-3).X



Unsuitable format of the Consensus Statements for contbuing education activitia

Only 33 percent of those department chairs who were familiar with the Consensus

Program rated the format in which Conference findings are presented as very

appropriate for CME. This figure ranged from 12 percent of family medicine chairs

to 40 percent of neurology and oncology chairs. Only 18 percent of continuing

education directors gave this rating.


Respondents criticized the Consensus Statements as bland, lacking in adequate

background information, and lacking in sufficient data to support the findings and

conclusions. One family medicine chair noted that the “format is pretty dry and the

findings are not easily recalled. Might be helpful if CDP topics were contrasted with

current prevailing professional practices.”


Respondents also noted that it would require work on their part to translate a

Consensus Statement into a format appropriate for a continuing education activity.

Many suggested that they would be more likely to make use of Consensus information

if they had access to materials that could readily be incorporated into their ongoing

continuing education activities. Our survey respondents rated the potential usefulness

of 10 types of materials for their CME activities; the materials rated most highly were

CME curriculum materials for short sessions (such as grand rounds), reference





                                           10

bibliographies, and conference proceedings. Video tapes of the Conferences received

the lowest ratings for usefulness in continuing education. X (See appendix C,

table C-16.)


A number of respondents offered the suggestion that slides or overheads outlining the

findings and recommendations of Conferences would be very useful for CME

activities, lectures, talks, and meetings. Several people with whom we spoke urged

that such materials could best be used in regularly scheduled activities, such as

monthly departmental update meetings or grand rounds. They suggested that NIH

might make such materials available, or announce their availability, through targeted

mailings to department chairs and others responsible for continuing education. The

NIH could suggest in a cover letter that such people discuss Conference findings at an

upcoming continuing education activity.27



Ldtwms   aDoul iw Frogrurn’s ejfecdventw   and usef”

Most medical school department chairs voiced general respect for the Consensus

Program.n Nevertheless, a number of specific concerns were voiced by respondents

familiar with the Program about limitations to its effectiveness and usefulness. The

most prominent of these concerns were related to the appropriateness of Consensus

panelists and speakers, the practicality and directiveness of Consensus Statements, and

the adequacy of CDP procedures. A few respondents expressed fundamental

objections to the use of consensus methods to address controversies in medicine.

Many of these comments parallel criticisms raised in previous evaluations of the NIH

Consensus Program, including NIH-commissioned studies by Rand, the University of

Michigan, and the Institute of Medicine.


The groups we su~eyed represent some of the best informed and most up-to-date

members of the medical community. Their concerns, whether reflective of actual or

perceived weaknesses in the CDP, represent a serious barrier to wider dissemination

and acceptance of NIH Consensus findings.


Choice of panelists and speakens: In unprompted written comments, 10 percent of
those department chairs who were familiar with the Consensus Program voiced
concerns about the credentials and intellectual independence of Conference panelists
and speakers. 29 As one summed up these concerns, “the CDP is highly dependent
on the panel selected to make the assessment. The stature, knowledge, and respect of
a single individual can alter the conclusions in an inappropriate manner.” The
predominant criticism among these respondents was that the process is biased by the
selection of NIH “insiders,” both to present evidence and to sit on the panels. As one
neurologist put it, “attendees appear limited and the panel of ‘experts’ seems hand-
picked; it doesn’t represent a true broad sampling of opinion to develop ‘consensus,’
but just reflects a preconceived opinion of NIH or a small panel.” A CME director,
him~elf a physician, described pa~icipants as the “same insider crowd--’experts’ who
often have their own conflicts of interest.”


                                           11

Family physicians were particularly critical of what they regarded as the subspecialty

focus and research-orientation  of the panelists and speakers.w In a typical criticism,

one strongly urged that NIH “balance the committees towards practical users of the

information away from so-called experts.” Another voiced the widely noted comment

that “the panels should include family physicians since we are likely to be the

‘consumers’ of much of the Consensus findings.”


Practicality and directiveness of Statements:Only 40 percent of those department chairs
who were familiar with the Program strongly agreed that Consensus recommendations
are practical--ranging from 26 percent of family physicians to 52 percent of
neurologists. Likewise, only 38 percent of department chairs strongly agreed that
Consensus recommendations are sufficiently directive--ranging from 26 percent of
family physicians to 46 percent of neurologists (see appendix C, table C-14).

While there w~re few strongly negative ratings with regard to these characteristics of

Consemus atawnems, we ~elieve mat the fact that 60 percem u. QJpi.LL.---..Ai-~lairs

do not strongly regard the Statements as sufficiently practical or directive may well

serve as a barrier to greater use of NIH Consensus findings in their CME activities.


Family physicians were particularly critical of the usefulness of Consensus Statements

for their practices. In a typical, unprompted comment, one argued that Consensus

Conferences “are biased by a subspecialty focus. The underlying assumption that the

Conference results are relevant for application in general medical practice is, at best,

partially correct. The Program would benefit from a vast increase in practice-based

research.” Another similarly noted that “the requisite knowledge for frontline practice

has not and will not come from subspeciaky, highly selected patients. Thus Consensus

guidelines are often unuseful and sometimes irrelevant to generalists.” Another

argued that the panels should “make the recommendations & more practical and

applicable. Consensus Statements are written by research experts not knowledgeable

about the patients and settings for which they are intended.”31


Adequa~  of CDP procedures: Respondents identified two areas of concern regarding
the mechanics of the Consensus process: Conference planning and length.

In unprompted comments, 14 percent of those department chairs who were familiar

with the Program criticized the process used for planning Consensus Conferences.

They urged that there be broader participation in the planning stages of Conferences,

including topic-, panelist-, and speaker selection. Several noted, in particular, that

there should be greater medical school involvement in the plaming process, and urged

that all medical school department chairs in a relevant specialty should be invited to

attend the actual Conferences. Also in unsolicited comments, 18 percent of those

family medicine chairs who were familiar with the Program urged greater involvement

of primary care specialists in the planning of Conferences.


Only 31 percent of respondents strongly agreed that the 2-1/2 day length of the

Conferences was sufficient to adequately consider the issues?2 Their concerns were



                                                12

illustrated by 2 respondents who had particular familiarity with the Program: one

department chair, who had chaired an NIH Consensus Conference, noted that

“minority opinions get lost in the rush--sometime after midnight--to complete the

report and achieve consensus. I find the format a bit too rushed--even a few extra

hours would help.” A second respondent, who had participated on two Consensus

panels, likewise rated the length of the Conferences has highly inadequate.


Objections to consensus methods:  In unprompted comments, 6 percent of those
respondents who were familiar with the CDP expressed a ‘philosophical problem’ with
the conce t of consensus development as a means of resolving controversies in
medicine. f3 Some of these respondents objected to what they regarded as a
‘cookbook approach’ to medicine, arguing that this type of activity could be harmful to
the independent judgment of practicing doctors. Many of these respondents asserted
that Consensus recommendations are the ‘result of compromise,’ and argued for a
more rigorous method of technolo~ assessment. One urged that NIH use an “explicit,
evidence-based, pauem pretercnce-kwussed approach.”

One neurology chair summed up what several believed is the fundamental paradox of

the consensus process: “The extent of information and studies that need to be

reviewed for the consensus cannot be mastered unless the panelists are already expert.

Yet if they are, they will bring their own biases to the panel.”~





                                          13

                    RECOMMENDATIONS

Our findings indicate that medical school continuing education activities can play an
important part in the dissemination of NIH Consensus findings. Indeed, medical
school department chairs and others responsible for planning and conducting
continuing education activities are key opinion leaders in their fields and can serve as
major conduits for transmitting such information more broadly.

These findings also suggest, however, that this dissemination channel is not being fully
utilized, in part because (1) a significant minority of those people who play a role in
medical school continuing education know little or nothing about the Program; (2)
many of those who are aware of the CDP feel that its products camot be readily
incorporated into their activities; and (3) some voice basic concerns about the current
effectiveness and usefulnws of the Program.

To maximize the potential for medical school continuing education as a vehicle for
disseminating Consensus findings, we offer the following recommendations:

l%e IWHshoukii   takestepf tohcreaseawaren.4m       of the CDP among tlume rqponsible for
conthubag medical katim          lh w       shouki make special ~orts m reach those who
sponsor Contbluing education for gerund and fmphysiciiwm

Considering the important role of department chairs and CME directors in planning
and conducting medical school continuing education activities, it is important that NIH
reach them and ensure that they are familiar with the CDP and its products. To do
SO,NIH should:

.	     M aximize the effectiveness of direct-mailing efforts by tailoring such mailings to
       department chairs and CME directors as educatois. While some currently
       receive direct-mailings in their capacity as members of specialty societies, we
       believe that specialized mailings would be more effective. The NIH could use
       such mailings as an opportunity to encourage recipients to cover Consensus
       findings in their continuing education activities.

.	     Work with individual department chairs, members of CME adviso~
       committees, deans, and continuing education directors at key institutions--or
       gToups of such individuals--to plan appropriate dissemination strategies.

In addition, NIH could:

.	    Work with organizations other than medical schools--including relevant specialty
      societies, associations of medical school professors in particular specialty areas
      (such as the Society of University Professors of Neurology and the Society of
      Teachers of Family Medicine), the Society of Medical College Directors of
      CME, the Association of American Medical Colleges, and the Accreditation


                                           15
          Council for Graduate Medical Education--to     plan appropriate   dissemination
          strategies.

 .	      Explore ways of identifying those people in individual departments who are
         most closely involved in the planning and conduct of continuing education
         activities in particular subject areas.

 In each of these areas, NIH should make special efforts to     reach general and family
 physicians. They are an important target audience for the      CDP because they both use
 the technologies addressed in Consensus Conferences, and       serve as gatekeepers who
 determine the type of specialty care their patients receive.   Their role is likely to grow
 in importance as a result of expected reforms in the health     care system and an
 increasing emphasis on managed care systems.

 2%e NIH should _     more +ective wavs of encoumging          the   zkcorpomthn of
 Corawnsw jnamgs inw ~waruung txiucuu.on acntiia.

The NIH should explore ways of packaging and disseminating Consensus findings that
would facilitate their use in CME activities. In this effort, NIH should:

.	       Produce--or work with other organizations to produce--slides, overheads, or
         other curriculum materials. The NIH should build upon its experience with
         prior efforts in this area.

.	       Conduct focus-group discussions with key audiences of Consensus findings,
         including medical school department chairs and CME directors, to learn further
         ideas on format issues.

The NIH could also examine the attitudes and practices of other types of continuing
education sponsors. In its fiture research, NIH could consider the following ideas:

.	       Survey CME directors at community hospitals, State medical societies, State
         and local medical and specialty societies, and local chapters of national societies
         regarding their current and potential uses of Consensus information.

.	       Conduct focus group discussions with representatives of national specialty
         societies, including the American Academy of Family Practice and other
         prima~-care groups, regarding their current and potential uses of Consensus
         information.

nae   NIHshouus@en@en        ihefomto     Wdmklnd    and &ld&?ssbasic    CO?lCtY7LS   (ZbOld   the
~rwmus      Devekpnent    l%ogmm



The NIH has demonstrated a firm commitment to ongoing evaluation and
improvement of the Consensus Development Program, including Conference planning,
conduct, and information dissemination. Because no dissemination efforts will be


                                             16

successful in reaching and influencing people who have basic concerns about the
effectiveness and usefulness of the Program’s methods, NIH should intensify its efforts
to understand and address such concerns. Some of these concerns may be based on
limited familiarity with or understanding of the CDP. This possibility suggests the
need for intensified efforts to clari~ the Program’s procedures, targeting in particular
key groups of opinion leaders, such as those we surveyed. At the same time, as noted
in the report, the fact that some of these concerns have been raised repeatedly in
evaluations of the CDP may suggest a genuine need to reexamine some of the
Program’s methods.

The NIH could use focus groups or informal working groups of department chairs and
CME directors, and other key audiences, to learn about and address these concerns.

As initial steps, NIH should:

       Identify ana test better ways of involving a wider range of pc o~M ,fi L...
       planning stage of upcoming Consensus Conferences to maximize acceptance of
       the outcomes.

       Address concerns about panel and speaker selection by (1) strengthening its
       efforts to increase primary-care representation, and (2) clearly stating in each
       Consensus Statement how panelists and speakers were selected and reporting
       their credentials.




                                           17

                   AGENCY                COMMENTS

We solicited and received comments on a draft of this report from the Public Health
Service (PHS). The PHS concurred with our recommendations and identified several
activities that NIH currently has underway or has planned that address these issues.

In particular, PHS noted that the NIH Office of Medical Applications of Research is
in the process of publishing a revised statement of operating guidelines and
procedures for the CDP. In addition, NIH will explore new ways of exploiting CME
as an avenue for dissemination of Consensus findings. The NIH will also continue its
ongoing efforts to evaluate the procedures and impact of the CDP.

The PHS also suggested that the report ‘be revised to make clear that respondents’
criticisms of Ihc Ccm~sm~MPro&grammav he based on limited famil;atitv -’~tfi the
Program or out-of-date iniormatlon; PHS suggested that these opiruons may rcxlect
perceptions of problems, rather than actual problems. We continue-to believe that the
concerns reported to us by survey respondents merit serious attention by NIH. First,
our respondents represent some of the best informed and most up-to-date members of
the medical community, and are in key positions to seine as conduits for the
dissemination of Consensus findings; their opinions are important. Second, the
criticisms raised by this critical minority of respondents have been identified in prior
studies, some of which were commissioned by NIH itsel~ this suggests either
continuing problems or a need for better communication. We have modified the text
to put these issues into clearer perspective.

The complete text of the PHS comments appears in appendix E.




                                          19

                                    APPENDIX                      A


                                           METHODOIX3GY

Our findings and recommendations                are based upon five main sources of information:

1. Mail surveys: We conducted two sets of mail surveys in November 1992. First, we
selected three specialty areas in which recent Consensus Conferences had been held
--family medicine, neurology, and oncology--and surveyed the chairs of those
departments or divisions at all U.S. medical schools, as listed in the Association of
American Medical Colleges’ Directorv of American Medical Education (see appendix
C for a summary of responses). Second, we surveyed the directors of CME at all U.S.
medical schools; the Accreditation Council for Continuing Medical Education provided
us with its mailinz list (see appendix D for a summary of responses).

In our sutveys, we inquired about overall familiarity with the Consensus Development
Program, awareness of a sample of specific Consensus Statements, use of Consensus
findings in continuing education activities, and opinions about the Program and its
products. We asked department chairs to consult appropriate colleagues regarding
specific subject areas, as necessary.

Of the 12 Consensus Conferences held in 1990 and 1991, we selected 7 for our
sample, targeted to a variety of audiences (see table A-l).


    Table A-1: Target audiencesfor the 7 sample ConsensusStatements
                                                                    Target audiences includti

    Clmsensus Statement


~                                                           ~
    Swgq for Epilep~ (March 1990)                                                    x
    Chkicaf use of Botulinum Toxin (November 1990)                   x               x
    Intravenous Immunog[obulin (May 1990)                                                       x
 Adjuvant Therapyfor Colon and Rectum Cancer                                                    x
 (April 1990)
 Earfy Stage Breast Cancer (June 1990)                               x                          x
                                                            II           I               (
    Gastrointestinal Suqey for Severe Obesity                        x
    (March 1991)
    Treaonent of Panic D&order (September 1991)                      x

Our sample selection was based on discussions with NIH staff and respondents to our
survey pretest, and was designed to produce a sample that included more than one


                                                    A-1
Statement addressed toeachof thethree specialty groups. Twoof the Statements
were addressed to more than one of the groups; the other five were addressed to only
one of the groups each. We asked family medicine chairs about 4 of the 7, neurology
chairs about 2 of the 7, and oncology chairs about 3 of the 7.

We received a response rate of 77 percent among department chairs and 66 percent
among CME directors. Our respondents represented medical schools of all sizes,
types of sponsorship, and geographic location. We do not believe that nonrespondents
differed in any significant way from respondents (see appendices C and D for
breakdowns of our response rates).

In the findings, we have focussed on the responses of department chairs, who are
generally key medical opinion leaders and who are more closely involved than CME
directors in the subject matter of their departments’ continuing education activities.

2. In-person and telephone discussions with medical school dep~rmien~ cnati ~ ad
continuing education directors: We spoke with a large number of CME directors and
department chairs both before and after the mail survey. In particular, we telephoned
all those department chairs who reported in their surveys that their departments’
relevant continuing education activities had definitely not addressed Consensus findings,
in order to learn better why not. We also followed up with a sample of those who
responded that their departments’ CME activities dej7niteZy had addressed CDP
findings, in order to learn more of their thoughts about the Program and its
dissemination activities.

3. Contacts with NIH: We conducted numerous formal and informal discussions with
the staff of NIH’s Office of Medical Applications of Research and a review of NIH’s
dissemination materials. We also attended a July 1992 meeting of the NIH
Coordination Committee on the Assessment and Transfer of Technology, and both the
public and executive sessions of the September 1992 NIH Consensus Conference on
Gallstones and Laparoscopic Cholecystectomy.

4. Other discussions: We spoke with directors of CME at several medical specialty
societies, including the American Academy of Neurology, the American Society of
Clinical Oncology, the American College of Cardiology, and the American Psychiatric
Association; and representatives of the Alliance for Continuing Medical Education, the
Accreditation Council for Continuing Medical Education, the Society of Medical
College Directors of Continuing Medical Education, the Association of American
Medical Colleges, the American Medical Association, the Rand Corporation, the
Institute of Medicine, the Public Health Service’s Agency for Health Care Policy and
Research, and the Office of the Assistant Secretary for Planning and Evaluation.

5. Review of the literature: We examined the literature on medical technology
assessment, the diffusion of medical innovations, the theory and practice of medical
education, and physician information habits.



                                         A-2

                             APPENDIX                   B


                       CONTINUING MEDICAL EDUCATION:
                                BACKGROUND

The American Medical Association and the Accreditation Council for Continuing

Medical Education (ACCME) define continuing education as consisting of

“educational activities which serve to maintain, develop, or increase the knowledge,

skills, and professional performance and relationships that a physician uses to provide

services for patients, the public, or the profession,” and its content as “that body of

knowledge and skills generally recognized by the profession as within the basic medical

sciences, the discipline of clinical medicine, and the provision of health care to the

public.”35 Such information can be conveyed in a variety of settings and formats,

including periodic conferences and formal lectures: ongoing hospital grand v’lnds,

seminars, and discussion groups; ancl seii-instructional materlais.


To ensure some degree of consistency, the ACCME accredits most sponsors of

continuing education for physicians, including most medical schools, national medical

specialty societies, teaching and community hospitals, State and local specialty

societies, voluntary health organizations, pharmaceutical and device firms, and for-

profit educational companies. State medical societies can be accredited both to grant

credit for their own programs, and to accredit community hospitals as sponsors of in-

house and locally marketed activities. The ACCME also accredits the NIH Office of

Education, which grants credit to physicians who attend the public sessions of NIH

Consensus Conferences. In addition, NIH has begun to explore the possibility of

granting credit for self-study of printed Consensus Statements.


Physicians may be required or encouraged to complete a certain number of hours of

CME by their respective State medical societies; national, State, or local professional

organizations; State licensing boards; malpractice insurers; and hospitals. To further

encourage participation in continuing education, the AMA grants the Physician’s

Recognition Award to doctors upon completion of certain requirements.


The primary continuing education activities of national specialty societies are large

annual meetings that often draw more than 10,000 attendees and involve hundreds of

different educational offerings. A society’s planning committee or education office

usually selects such offerings from among proposals submitted by members. Some

societies also conduct smaller educational offerings throughout the year, either at their

headquarters or regionally.


Medical schools and teaching hospitals offer a wide range of continuing education

programs. Some of these are conducted in-house at the school or hospital, and are

intended for in-house faculty and staff. Others are marketed to a broader audience,

require a fee, and are held at hotels, conference facilities, or other hospitals.




                                          B-1

At many institutions, including most medical schools and hospitals, continuing

education activities are coordinated by an office of continuing education, which

provides educational and administrative  support.  The structure of these offices varies

greatly from one institution to another: Some CME offices are headed by physicians,
but many are headed by either educational professionals or administrators.

The CME directors’ expertise in curriculum development, familiarity with physicians’
educational activities, and position in the medical school all suggest that they could
play a useful role in the dissemination of Consensus findings. Many of those who
responded to our survey urged that they receive Consensus information directly. One
assistant dean for medical education noted that “the formal CME activities of medical
schools comprise a major system for disseminating Consensus Statements.”

At the same time, these CME directors generally have a limited role in deciding what
information is presented in the activities for which they grant credit. They generally
rely on ~Ld~dh~ Ur ii~-h~ ~~i~mitt~~s    d redid    facuit~ or stali LL)rLL)~i~..: . . .Aun
and program development. The chairs of individual medical school departments are
key players in setting the agenda for continuing education at their institutions.% The
specific content of most courses is determined by the individual faculty or staffi as one
director noted, “the vast majority of our programs are initiated, planned, and executed
by individual departments.”37




                                          B-2

                                  APPENDIX                  C


          SUMMARY OF DEPARTMENT                    CHAIR SURVEY RESPONSES

Tables Page C-2

 c-1   OIG survey sample sizes and response rates

 c-2   Familiarity with the CDP

 c-3   Sources of information about the CDP

 c-4   Awareness of each of 7 sample Consensus Statements

 ‘C-5 ,~wareness of :lkiitional Consensus Statements

 C-6 Percentage whose departments address each type of topic in CME activities

 c-7� Percentage of department chairs who sponsored CME activities in each of 7 sample
       topic areas

 C-8� Percentage of those department chairs who sponsored CME activities on each of 7
       sample topic areas who were aware of a relevant Consensus Statement

 c-9� Percentage of department chairs reporting that a relevant CME activity had addressed
       the findings of at least one of 7 recent Consensus Conferences

 c-lo Formats of CME activities that addressed CDP information

 C-n Target audiences for medical school CME activities that addressed CDP information

 C-12 Additional use of CDP information in CME

 C-13� Of those 28 percent of department chairs that attended a CME activity sponsored by
       another organization, the percentage reporting that this activity had been sponsored by
       each type of organization

 C-14 Comments on the CDP

 C-15 Degree of respect for the findings of the CDP

 C-16� Percentage of department chairs describing each type of material as potentially useful
       for their CME activities

 C-17� Reported degree of department-chair   involvement in the selection of topics for CME
       activities in their department

Blank SmVeyhstrumen~      Page C-15


                                             c-1
                                                                                   1
     I Table C-1: OIG survey sample sizes and response rates                       I

                                  Family
                                Medieine
                                                                                   II
                                  chairs

       Sample Size                    110             118             119     347 ii
                                                                                  I
       Number of                       84              WI             95      267 ~
       Respondents
       Response Rate                 76%            75% I            80%      77% j]




Very familiar
Somewhat familiar,
                           r
                           II
                                  Family
                                Medieine
                                  Chairs
                                   (n=&l)

                                    14%
                                               Neurology
                                                   Chairs

                                                     (n=88)

                                                      31%
                                                                Oncology
                                                                  Chairs

                                                                     (n=95)
                                                                      47%
                                                                               Average


                                                                                 (n=267)

                                                                                   3170


but not sure of all
the details                         33%               34V0            41%          36V0
Aware, but didn’t
know much about it                  25%               17%              8%          1770
Not at all aware          II        27%               18%              3%          16570
Source OIG smwy of medieal school department chairs, November 1992
Note Differences are statistically significant at the .05 level.




                                            c-2
Table C-3: sources of information               about the CDP


—-C



Received     a CDP Statement by mail


E                                                             ~~     ‘        ~~              ~            ‘~~
Read a CDP Statement in JAMA                       ‘          62%             3170            32%          *   40%
Read about the CDP in JAMA                                    61%             22%             2270         * 32$Z0
Read a CDP Statement in a specialty
journal                         —.
                                                              13%    I        47%             299Z0  ~ E   * 3170

Read about the LDP in a speclaity                  I’

journal                                                       189Z0           3597(0          30%              28%
Received a CDP Statement at a
CME activity, professional society
meeting, or conference                                        26%             22%             33%              28%
Heard about the CDP from
colleagues within own institution                             15%             25%             35%          * 26%
Heard about the CDP from
colleagues at outside institutions                            1570            21%             3370         * 24%
Read or saw something about the
CDP in the popular media                                      1890             4%             23%          * 16%
Source OIG survey of medical school department chaim, November 1992

Note F.xciud~ those 42 department chaim (16%) who described themselves as “Not at all aware” of the CDP; an

asterisk (*) indicates that differences among department chaira are statistically significant at the .05 level.





                                                        c-3
     Table CA        Awareness of each of 7 sanmle Consensus                    Statements                ~~

     Statement



     Su&ety for Epilep~

     Clinical Use of Botulinum Toxin

     Intravenous Immunoglobulin

     Adjuvant Theropy for Colon and                                                             79%
     Rectum Cancer                                                                             (n=92)



il        -                                       I       (n=61)   I                           (11=!/1) ,,
     Gastrointestinal Sutgety for                 ~         3170                                     -    I
     Severe Obesity                                       (n=61)                                          :!
                                                  I
     Treatment ofPanic Disorder                   ~         56%                                      -1
                                                          (n=61)                                          I

     Source OIG sutvcy of medical school department chairs, November 1992

                                                                                    “1

     Note: Excludes those 42 department chairs (16%) who described themselves as “Not at all

     aware” of the CDP; a dash (-) indicates that the group was not asked about a given statement.




                                                 c-4
                    Table C-5: Awareness of additional Gmsensus
                    Statements, not included in our sample

                           Number of Statements                            Percentage of
                                                                             respondents
                                                                                     (n=225)

                                                  None                                 72%
                                                          1                            19%
                                                        2                                7%
                                                        3                                2%
                                                        4                                1%
                     Source OIG survey of medical school department chairs, November
                     1992
                   ..-— _——.                                   -————




 Table C*. Percentage reporting that their departments                           address each type of
 topic in their CME activities




r~                                                                            “n%’lr




 c. Specialty society                           77%                5570             71%               * 68%

 practice guidelines/

 practice parameters                          (n=82)              (n=87)           (n=94)              (n=263)


 Soureex OIG survey of medical school department chairs, November 1992

 Note: An asterisk (*) indicates that the differences among department chairs are statistically significant at

 the .05 level.





                                                    c-5
Table C-7: Percentage of department chairs who sponsored                              CME
activities on each of 7 sample topic areas

Topic                                              Family        Neurology            Oncology
                                                 Medicine            chairs             chairs
                                                   chairs
                                                     (n=S4)             (n=88)

Surgery for Epilepsy                                                     78%
Clinical use of Botulinum Toxin                      2.4% ‘              57%
Intravenous Immunoglobulin                                                                   23%
                                                                                            (n=94)
Adjuvant Therapy for Colon                                                                   7570
and Rectum Cancer                                                                           (n=94)

Early Slagc Breast Cancer                    ~        56?ZG                      .:            ,.
                                                                                            ~t]=~~j
Gastrointestinal Surgery for                          12%
Severe Obesity
Treatment of Panic Disorder                           69%
Source OIG survey of medical school department chain, November 1992
Note A dash (-) indicates that the group was not asked about a given topic.




                                            C-6

Table C-& Percentage of those department chairs who sponsored
CME activities on each of 7 sample topic areas who were aware of a
relevant COnsensus Statement

Topic                                              Family        Neurology         0nu310gy
                                                 Medicine            chairs           chairs
                                                   Chaim

Surge~ for Epilepsy                                                      87%
                                                                        (n=54)

Clinical use of Botulinum Toxin                      100%                79%
                                                      (n=2)             (n=43)

Intravenous Immunoglobulin                                                                45%
                                                                                         (n=20)

Adjuvant Therapy for Colon                                                                w%
and l<QUILJiil LtiL;..J~
Early Stage Breast Cancer                    I        60%                                 929io
                                             I       (n=35)                             (n=79)    I

Gastrointestinal Surgery for                          44%
Severe Obesity                                        (n=9)

Treatment of Panic Disorder                           55%
                                                     (n=42)
Source: OIG survey of medieal school department chairs, November 1992

Note Excludes those who were not at all aware of the program; a dash (-) indicates that the

group was not asked about a given topic.





                                           c-7
Table C-9 Percentage of department chairs reporting that a relevant

CME activity had addressed the findings of at least one of seven
                                                                                               I

recent Consensus Conferences durim the urevious 3 Years

                                                e.	                     .


                                                                                               I

                          Family         Neurology           Oncology              Average     !
                        Medicine              chairs           chairs
                          Chairs
                             (n=65)            (n=73)           (n=85)               (n=223)   ~

Definitely yes
                15%                36970          65%
Probably yes
                 23%                 2190           20%                   21% 1’
Definitely not
                12%                    1490        3%                        9% ~
Probably not
                  15%                    11%         7%                    11%    jl

                                                                                               I

Don’t know
                   3470                    19%         5%                    1870   I

————                                                   -——
Source OIG survey 0[ medical school department chairs, Novemoer 1992

Note Inchsdea only those 223 who did addreas at least one of the 7 sample topics in a CME      I

activi~ differences are statistically significant at the .05 level.                            1





                                          C-8

  Table C-l&         Formats of CME activities that addressed CDP information

                                                                Family          Neurology          OncOlogy             Average
                                                              Medicine              chairs           chairs
                                                                chairs
                                                                     (n=25)            (n=41)           (n=73)              (n=139)

  Large group activity                                                6090
             56%              44%                  50%
  Small group activity (eg. discussion

  grouphvorkshop)                                                    24%
               34%              53%                * 42%
  In-house activity (eg. grand rounds)                               60%
               73%              71%                  70%
  Activity open to outside audiences                                 409’0
             44%              34%                  38%
  Self-directed study                                                  4%
               5%                5%                   5%
   “ ,LIrcc ~!G sumt’v of medical schooi department c!,.aim.November 1992
II Note: includes only those 139 (62 percent) wno reported that their @lE achwties on the relm’ant tovics naa u.. ‘hlLUYor            ,[
   probabty addressed- CDP findin&; &terisk (*) indie&s that the differences noted are statistically sign~fieant at the .05 level.




  Table C-II:       Target audiences for medical school CME activities that addressed CDP
  information




 =EqE!EElr
  In-house hospital staff                                               44% I              76%              71%             * 68940

  In-house medical school faculty                                       48% I              98%              84%             * 81%

  Residents                                                             80% ~              95%              89%               89%

 Researchers        from other institutions                               o%                5%               16%              10%
  Practicing physicians: local or nonlocal
                                                                        68%                76%              71%               72%
       From the local area
                                                                          6s%               66%               7070              6a%
       From outaide the local area
                                                                          40%               qlqo              30%              35%

 Source OIG sutvey of medieal school department chairs, November 1992

 Note Includes only those 139 (62 pereent) who reported that their CME activities on the relevant topies had definitely or

 probably addreased CDP findingq an asterisk (*) indieatea that the differences noted are statistically significant at the .05

 level.





                                                               c-9
Table C-12       Additional    use of CDP information in CME

                                                                Family      Neurology          Oncology           Average
                                                              Me&ine            Chahx            Chairs
                                                                chairs                                                n=264

Percentage aware of CME activities that                             7%             970                  18%           * 12%
have been conducted at their institution that
addressed information from a Consensus
Conference other than those in our sample                         (n=83)         (n=87)                (n=94)         (n=264)

Percentage that have attended a CME                                14%            22%                   44%           *   2870
activity sponsored by an organization other
than their own that addressed information
from a Consensus Conference                                       (n=83)         (n=87)                (n=95)         (n=263)

Source: (3JG survev of medical school department chaim. November 1992




Table C-13:      Of those 73 (28 percent) that attended a CME activity sponsored by another
organizitio~     the percentage reporting that this activity had been sponsored by each type of
organization


                                               ME



a. Another medical school/teaching


=b. A national specialty society               7        :                                 :        :

c. A state or local specialty society                   17%                5%             12%                   11%

d.	 A for-profit firm (eg., a                           25%                11%                7%                11%
pharmaceutical company, etc.)

Souros   OIG sumq’ of medical school department chain, November 1992




                                                      c-lo
Table C-14    Comments on the CDP

                                                        Very   Some        A     Not 1 N/A
                                                        much    what   little   at all ~

a. the topics addressed in NIH      ~Average              62      32       4       01     2

Consensus Conferences are

timely                              , Family Medicine     36      51      11       o~     2

                                    I ~n::oBB�            77      17       1       0      4
                                                          68      30       1       0      0
b. the issues addressed by the       Average              38      47      12       11     3

CDP are appropriate for

resolution through the group         Family Medicine      39      41      15       0      5

judgment method of consensus         Neurology            46      45       6       o’     3

development                          Oncolo~”             30      52      14       2      1

                                                                                  .———
c. the Consensus Statements          Average   *          48     41        9       1   2
usefully distill large bodies of
information�                         Family Medicine      49     31       16       0      3
                                     Neurology            52     38        4       1      4
                                     Oncology             45     49        7       0,     0
d. the 2-1/2 day format of the       Average              31     39        9       4 ‘   18

NIH Consensus Conferences

allows sufficient time to examine    Family Medicine      24     32      14        71    24

and consider the issues in           Neurology            35     42       7       01     16

question                             Oncology             33     40       7       4      16

e. the recommendations of the        Average   *          40     50        7       1      3
consensus� panels are practical
                                     Family Medicine      26     54      13       3       3
                                     Neurology            52     42       3       0       3
                                     Oncology             39     52       7       0,      2
L the Consensus Statements are      Average    *          38     47      10        1      4
sufficiently directive
                                    Family Medicine      26      51      15       3      5
                                    Neurology            46      46       4       0      4
                                    Oncology             41      46      10       1      2
1. the recommendations    are       Average              55      40       3       0      2

iirected towards clinical, not just

“esearch audiences                   Family Medicine     40      45      12       0      3

                                     Neurolo~            58      39       0       0      3
                                     Oncology            62      37       0       0      1
1. NIH sponsorship of the CDP       Average              63      24       9       2’     3

mhances the credibility of the

?rogram’s findings                  Family Medicine      56      23      11       21     8

                                    Neurology            71      22       3       3      1
                                    Oncology             61      26      11       1      1


                                           C-n
Table C-14: Comments              on the CDP

                                                                                Very          Some            A      Not     NIA
                                                                              , much           what      little     at all
                                                                              I
i. the topics addressed by the                   Average                            52
             38         9         1      1
CDP are appropriate for

incorporation into CME                           Family Medicine                    38
             48        13        0       2
activities                                       Neurology                          58
             35         4        1       1
                                                 Oncology                           57              34         9        1       0
j.� the format in which the                      Average                            33              45        16        2       4
findings of Consensus panels are
presented are useful for CME                   Family Medicine                      12              60        24        2       3
activities                                     Neurology                            42              39        12        3       4
                                               Oncology
                                             . ———
                                                                                   40               40        14
                                                                                                                   —.
                                                                                                                        2       3
                     —.————-
                                                                          .
                                                                                                                                    !1
Note Excluding these who were not at all aware of the CDP; n=222 (Family Medicine n=61; Neurology n=6q Oncology                     ‘
n=92); an asterisk (*) indicates lhat the differences are statistically significant at the .05 level; numbers are in percxmt.




                       Table C-15: Degree of respect for the findings of the                                   ~

                                                                                                               I
                                                                                  A little              No
                                                                                  respect           respect
                                                                                                (              I
                       Average                             49            44               8               0

                       Family Medicine                     38            52               10              0
                       Neurology                           64            32                31             0
                       Oncology                            44            46               10              01
                                                                                                               1
                       Source OIG survey of medical school department chairs, November 1992
                       Note: Excluding those who were not at all aware of the CDP; n=220 (Family
                       Medicine n=61; Neurology n=68; Oncology n=91); the differences among
                       department chairs are statistically significant at the .05 level.




                                                           C-12

Table C-16 Percentage of department                   chairs describing each type of material as potentially
useful for their CME activities
                                                                   Family      Neurology ~ Oncology ~ Average
                                                                 Medicine          Chairs ;  Chairs I
                                                                   chairs                                      ~
                                                                                                               II
CME curriculum materials for small-group                    I
settings                                                              89%              76910            80%             81~o
CME curriculum materials for large-group
settings                                                              78%              69$Z0I           62%             70%
CME curriculum materials for self-directed
study                                                                80%               64% ~~           61% ;,F      * 6870




CME curriculum materials for longer CME ~                                                                      II
activities (1 day conferences/                                                                                 II
courses)                                II                           45?70             4570             39% I          4370

Videotapes of Conference highlights                         II       42% I             49%             35% II          42%
Videotapes of Conference press                                                                 [
                                                                                               I
conferences                                                            9%              11%               6%              9%
Conference proceedings                                                                         I
in booklet form                                                      62%               82%             81%           * 75%
Reference bibliographies                                                               86%             85% II        * 81%
Complete listing of past CDP topics                                  83%               83% ~           74% I           80%
Source OIG suIvey of medical school department chairs, November 1992

Note N is based on all 267 department chair respondents, regardleas of their level of awareness of the CDP; the response

rate for individual questions ranged from 235 to 250 an asterisk (*) indicates that the differences among department chaim

are statisticaifv simificant at the .05 level.





                                                         C-13

 Table C-17       Reported    degree of department-chair         involvement   in the selection   of topics for




~=F
, Very involved                                         44%             78V0                               62%
 Somewhat involved                             !        47%             16%           33%                  32%
 Not at all involved                                      9%             6%            2%                    6%
 Source   OIG sumey of medical school department chain, November 1992




                                                      C-14

    SURVEY INSTRUMENT              MEDICAL SCHOOL DEPARTMENT                  CHAIRS




The following survey was sent to chairs of family medicine.       Similar surveys were sent
to chairs of neurology and oncdo~,      in those surveys, questions A-3 and B-2 addressed
Casensus    topics relevant to those fields.




                                          C-15

SECI’ION k         AWARENESS         OF THE NH     CONSENSUS      DEVELOPMENT             PROGRAM

1. Prior to receiving this survey, how familiar were you with the National Institutes of Health
Consensus Development Program? Please check one:




                       ~El
                        Very familiar

                        Somewhat familiar, but not sure of all the details

                        Aware, but didn’t know much about it

                        Not at all aware                                            I



           If Not at all aware, then please go to Section B on Page 2. Otherwise,        please continue.


2. From what sources have you heard about the CDP during the past three years? Please check all
that apply:




         a. Received advance notice of at least one upcoming NIH Consensus Conference in
         the mail
                                                                                                      ~1----1
         b. Received at least one NIH Consensus Statement in the mail
                                                                                                      IL----I
    IIc. Received at least one NIH Consensus Statement at a CME activity, professional                II        II
      society meeting, or conference
    III d. Heard about the CDP from colleagues within my institution                                  L-4
                                                                                                      IHI
         e. Heard about the CDP from colleagues at other institutions
    II                                                                                                I-----4
         f. Read about the CDP in .MM4
         g. Read about the CDP in a specialty journal. Please specify:
                                                                                                      IL--!
         h. Read or saw something about the CDP in the popular media
                                                                                                      IMI

         i. Read at least one NIH Consensus Statement in L0L4
         j. Read at least one NIH Consensus Statement in a specialty journal.   Please speci~:
                                                                                                      H
         k. Other. Please speciijc




                                                     C-16

3. Prior to   receiving   this   survey,   were   you   aware   of the fo]]owing specific Consensus Statements?


        IITOPIC


        IIa. Clinical Use of Botuhzwn             Toxin (November 1990)
                                                                                                IL-U
          b. Earfy Stage Breast Cancer (June 1990)
          c. Gastrointestinal Suqgety for Severe Obesity (March 1991)                           l--+-+
          d. Treatment of Panic Disorder (September 1991)
                                                                                                Iul

4. Please list any other specific Consensus Statements of which you are aware:




SECTION       B. USE OF NH-I CONSENSUS                   CONFERENCE         INFORMATION

1. Does your department address the following types of topics in CME activities?


                          ~EIEl
                            a. The results of medical technology
                            assessments
                           b. Clinical applications of research
                           c. Specialty society practice guidelines/
                           practice parameters
                                                                                .B


2. Has your department conducted a CME activity in the past three years (either in-house or for
outside audiences) that addressed, at least in part, any of the following topics:


       l’UPIC

       a. Clinical Use of Botulinum Toxin                                      ~‘a         ‘0
       b. Early Stage Breast Cancer
                                                                               II      1        1
      c. Gastrointestinal Surgery for Severe Obesity
                                                                               II      I        I
      d. Treatment of Panic Disorder                                           II      I        I




                                                                C-17

3. If ~     for at least one of these topics, were the findings of the NIH Consensus Conference on that
topic addressed in the CME activity (ies)? Please check one:


                                                                        d

                                  Definitely yes

                                  Probably, but not sure

                                  Don’t know

                                  Probably not, but not sure

                                  Definitely not



       3b. If YES, what was the format(s) of the activity(ies)?    Please check all that apply:




                      a. Large group activity                               II         II
                      b. Small group activity (eg. discussion group/
                      workshop)
                      c. In-house activity (eg. grand rounds)
                      d. Activity open to outside audiences                  l----+
                      e. Self-directed study
                      f. Other:   Please describe:
                                                                             L

       3C. To whom was the activity(ies) targeted?      Please check all that apply:



                     ~m
                      a. In-house hospital staff
                      b. In-house medical school faculty                    II         II
                      c. Residents                                          II         II
                      d. Researchers from outside your institution          II         II
                      e. Practicing physicians from the local area          II         II
                      f. Practicing physicians from outside the local
                      area
                      g. Other:   Please describe:
                                                                            !_____l




                                                     C-18

4.	 Are you aware of any CME activities sponsored by your institution that have addressed information
from other NIH Consensus Conferences?

                                                   Yes            No


              4b. If YES, please list which Consensus Conference(s):




5.� Have you ATI’ENDED any CME activity sponsored by an organization other than your own that
addressed the findings of one of the NIH Consensus Conferences noted above?

                                                   Yes            No



       5b. If YES, what sort of organization sponsored this activity (ies)? Please check aii that apply:




                     IIa. Another     medical school/teaching hospital
                                                                          Iul
                          b. A national specialty society
                                                                          I-----!
                          c. A state or local specialty society
                          d. A for-profit firm (eg., a pharmaceutical
                          company, etc.)
                          e. Other (please specify):
                     IL
                                                                          H
                                                                          II        Ii




                                                       C-19

 SECITON        C    COMMEN’IS    ON THE CDP

 1. The opinions of CME and clinical profSion&       tow~ds the ~p    and towards group judgment
 efforts in general may affect the way in which specific r~mmendatiom     from the Program are received
 In the following table, we ask you to answer several questions by circling a choice on a four-point scale,
 where 1 = Verv Muck 2 = somewha~ 3 = A Little, and 4 = Not at All. If you are unable to answer
 a queatio~ please circle Not Applicable, LA


 ! Please rate the degree to which	                              Vay        Some-       A           Notat    1 NA
                                                                 Much       what       Little       Au

1 a. the topics addressed in NIH Consensus                              1234                                 NA1
], Conferences are timelv
I b. the issues addressed by the CDP are appropriate         ‘1234                                           ~NA
~ for resolution through the group judgment method of                                                        I
‘ consensus development
  c. the Consensus Statements usefully distill large                    1234                                     NA
‘~bodies of infoma?ion
                                               —..      ———..
‘1d. the 2 lfl-day format of the NIH Cons&us                            1234                                 I NA ~:
I Conferences allows sufficient time to examine and                                                                I
                                                                                                             I
~1consider the issues in question
  e. the recommendations      of the consensus panels are               1234                                 ~NA      II
i practical
                                                                                                                      1


‘ f. the Consensus Statements are sufficiently directive                1234                                 lNA\
                                                             I
IIg. the recommendations are directed towards clinical,      I          1          2            3        4   I NA     II
  not just research audiences
IIh. NIH sponsorship    of the CDP enhances the
                                                             1
                                                                                                             )        I
                                                                        1234                                 INA1
, credibility of the Program’s findings                                                                      (
I                                                            \                                               ,
  i. the topics addressed by the CDP are appropriate                    1234                                 ~NA      ‘
~
! for  incorporation into CME activities                                                                     !
                                                                                                                      4
i	 j.   the format in which the findings of Consensus                   1234                                 ~NA
  panels are presented are useful for CME activities

2. Please rate your overall degree of respect for the findings of NIH Consensus Development
Conferences (circle one):

                    Great         Some           A little         No
                    Respect       Respect        Respect          Respect

                    1             2              3                4




                                                     C-20

SECI’fON   D: CME ACTIWIES

In this sectio~ we ask how NIH might make information from the NIH bnsensus         Development
Program more useful for CME activities.

1. Would it be useful if NIH made the following materials related to Consensus    Development     Program
topics available for your use in CME activities? Please check Yes or No:


            I

            i MATERIALS                                                    IF=F=

            I
            I   a. CME curriculum materials for small group settings
                b. CME curriculum materials for large group settings       ~

           ] c. CME curriculum materials for self-directed study
                d. CME curriculum materials for short sessions

                (eg. 1 hour grand rounds)
                                                                       A   E

             c. Ch4E curruuurn mawri~is luI iol]gcr CJIE a-uv]ties
           II(eg. 1 day conferences/courses)                               ~,1’

           I f. Videotapes of conference highlights
                g. Videotapes of conference press conferences
                h. Conference proceedings in booklet form
                i. Reference bibliographies
                j. Complete listing of past CDP topics
                k. Other:   Please speci~:                                 I


2. How else might NIH work with medical school faculty to facilitate the use of Consensus
Development information in CME activities?




3. Please add any additional comments:




                                                    C-21

SECI’ION E     RESPONDENT        INFORMATION


In order to better understand the responses to our survey questions, we ask a few questions about your

professional background    This information will be used solely in aggregate, and will be kept

confidential.




Your name:

Your title:


1. Please note your area of specialty:

2. How long have you been head of your department
or section?

3.� Please rate the degree to which you are
{~~~1.~~din ~~:: ~ele::~on U! t.,pi~s (or
CME activities m your department (circle one):

               Very                      Somewhat             Not at all
               Involved                  Involved             Involved




Thank you for taking time to complete this surv~     we appreciate your assistance.   Please return the
sumey in the enclosed postage-paid envelope to

                                         HHS/OIG/OEI

                                         Tel:
                                         FAX:




                                                    c-22
                                     APPENDIX                    D


                     SUMMARY        OF CME DIRECTORS’        SURVEY     RESPONSES

Tabl~    Page D-2

 D-1    OIG survey sample size and response rate


 D-2    Familiarity with the CDP


 D-3    Sources of information about the CDP


 D-4    Awareness of each of 7 sample Consensus Statements


 D-5    )waremxs    of additicm:]! C’msensus St’ltements


 D-6    Percentage reporting that their institutions address each type of topic in their CME activities

 D-7    Use of CDP information by CME offices

 D-8    Comments on the CDP

 D-9    Degree of respect for the findings of the CDP

 D-10� Percentage of CME directors describing each type of material as potentially useful for their
       CME activities

Blank SWey Instrument       Page D-9




                                                   D-1

  Table D-1: OIG survey sample size and
  remonse rate




  Number of Respondents                         I                 79

  Response Rate                                  1            66.4%




Table D-Z       Awareness of the CDP                                     II


Very familiar
                                                      -I
Somewhat familiar, but not sure of all
the details
Aware, but didn’t know much about it II
                                                     L----l
                                                     ‘~
                                                     Ii



                                                     ,41
                                                                  48%



Not at all aware                                     II           1890
                                                                         I
Source   OIG survey of medical school CME directo~        November 1992 II




                              D-2

Table D-3:      Sources of information        about the CDP                             II
                                                                                        1




                                                                  _7iiE
                                                                           Directors
                                                                               (n=65)
                                                                  ------



Received a CDP Statement by mail                                                82%
Received advanced notice of a conference bv mail                                59?70
Read a CDP Statement in JAMA                                                    25%
Read about the CDP in JAMA                                                      31%
Read a CDP Statement in a specialty journal                                      6%
Read about the CDP in a specialty journal                                        2%
Received a CDP Statement at a CME activity,
proiesswna: society meeting, or conicrence                                      ?gy~ “

Heard about the CDP from colleagues within own
institution                                                                     17%
Heard about the CDP from colleagues at outside
institutions                                                                    12%
Read or saw something about the CDP in the
popular media                                                                   15%
                                                                  ;
Source: OIG sum’eyof medical school CME directors; November 1992

Note Excludes those 14 CME directom (18%) who described themselves as “Not at all

aware” of the CDP





                                     D-3

    Table D-4       Awareness of each of 7 sample Consensus
    Statements                                                             II
    Statement
                                                              Direetors
                                                                  (n=62)

    Surgey for Epi[ep~                                             32%

    Clinical Use of Botulinum Toxin                                29%

I/Intravenous Immuno@obulin
    Adjuvant Therapy for Colon and Rectum                          44%
    Cancer




‘
~
    Source: OIG sutvev of medical school CME directow November 1992
    Note Excludes [hose 14 CME directom (187.) who described Themselves




     Table D-5: Awareness of additional Consensus
     Statements: Percentage reporting that they were
     aware of Statements not in our sample

                   Number of Statements                  Percentage of
                                                           respondents
                                                                 (n=65)

                                          none                    7970

                                             1                     9%

                                             2                     5%

                                             3                     3%

                                             4                     3%

                                             6                   1.5%
     Source   OIG survey of medieal schwl CME directo~   November 1992




                                   D-4

Table D-& Percentage reporting that their institutions                       ~
address each tvue of to~ic in their CME activities                           I
                                                             ======+

                                                               Directors
                                                                    (n=78)   I

The results of medical technology assessments
Clinical applications of research                                    94% I

Specialty society practice guidelines/
practice parameters                                          d
Source: OIG survey of medical school CME directors; November 1992
                                                                     60%


                                                                             j




                                 D-5

-

r
—   Table D-7       Use of CDP information          by CME offices

[
    a. Percentage reporting that their office plays a role in topic selection     82%

    for CME activities                                                           (n=78)


    b. Percentage reporting that they are familiar with the content of the
[   CME activities for which they grant credit
                                                                                  96%

                                                                                 (n=79)


    c. Percentage of those familiar with the content of their CME                 23%





I
    activities who were aware of any CME activities sponsored by their

    institution during the past 3 years that had addressed information

    from an NIH Consensus Conference                                            I (n=75)


    d.� Percentage of those CME directors who had received a
    Consensus Statement by mail during the past 3 years who had
    forwarded it to a member of the CME committee or faculty:

                                                   never                          67%
                                                   once                            4%
                                                   2-4 times                      19%
                                                   5 or more times                  170
                                                   not sure                        9%

                                                                                 (n=79)
    e.� Percentage reporting that a faculty or staff member had
    approached them during the previous 3 years with a recommendation
    to offer a CME activity addressing a specific NIH Consensus
    Conference:

                                                   never                          84%
                                                  once                             6%
                                                  2-4 times                        5%
                                                  5 or more times                  090
                                                  not sure                         5%

                                                                                 (n=79)
    Source   OIG sutvey of medical school CME directo~   November 1992




                                                  D-6

Table D-&       Comments       on the CDP

                                                                          Very
                                                                          much
                                                                                     some
                                                                                      what
                                                                                                YLui_lE

a. the topics addressed in NIH Consensus
Conferences are timely
b. the issues addressed by the CDP are appropriate
for resolution through the group judgment method
                                                                              46


                                                                              20
                                                                                          33


                                                                                          51
                                                                                                m
of consensus development
c. the Consensus Statements usefully distill large                            37          35
bodies of information
d. the 2-1/2 day format of the NIH Consensus                                   18         24
Conferences allows sufficient time to examine and
     .,
~:~nsl[~~~t~l:. : es in am.x:icn

e. the recommendations           of the consensus panels are                  28          30
practical
f. the Consensus Statements are sufficiently directive                        25         33          7          0       36 ~
g. the recommendations are directed towards clinical,                         38         28          2          0       18 ~
                                                                                                                           !
not just research audiences
h. NIH sponsorship of the CDP enhances the                                    61         20          2          0       18 ~
credibility of the Program’s findings
i. the topics addressed by the CDP are appropriate                            50         31          3          0’      16 ~
for incorporation into CME activities
                                                                                                                           ,
j.� the format in which the findings of Consensus                             18         44        16           0       21 i
panels are presented are useful for CME activities                                                                           ‘1
sour~   OIG survey of medical school CME directors, November 1992
Note Excluding thase who were not at all aware of the CDP; n varies from 61 to 63 for individual questions; numbers are in
                                                                                                                             I
percent




                                                               D-7

Table D-9      Degree of respeet for the findings of the CDP                             II
                                I Great       Some 1 A little                     No I
                                ~1Respeet ~ respeet  respect                  respeet

CME directors                  i         59 I         38                 3           0
Source OIG survey of medical school CME directo~ November 1992

Note Excludes those who reported that they were Not at all aware of the CDP; n=58





     Table D-l& Percentage of CME direetors deseriiing                       each
     type of material as potentially useful for their CME
     activities




IICME curriculum materials for small-group settings                 II         89% II

IICME curriculum materials for large-group settings
IICME curriculum materials for self-directed study
                                                                    II
                                                                    II
                                                                               88%
                                                                               80% II
                                                                                     1



  CME curriculum materials for short sessions
  (eg., 1 hour grand rounds)
 CME curriculum materials for longer CME
 activities (1 day conferenceshxmrses)

IIVideotapes of Conference highlights
                                                                   IHI
IIVideotapes of Conference press conferences
                                                                   IL---=-I
II
 Conferenceproceedhtgsin booldet form                              II          80%   I
IIReference bibliographies                                         II          81% II

 Complete listing of past CDP topics                                           80%
 Source OIG survey of medieal school CME directo~ November 1992

 Note N is based on all 79 CME director respondents, regardless of their level of

 awareness of the CDP; it ranged from 70 to 75 for individual questions





                                     D-8

SURVEY   INSTRI.JIWEIT’C   MEDICAL   SCHOOL CME DIRE~ORS




                              D-9
SECTION A AWARENESSOF THE NIH CONSIWSW3I)IWELOPMENTPROGRAM

1. Prior to receivingthis survey,howfamiliarwereyou with the National Institutes of Health Consensus
DevelopmentProgram (CDP)? Pleasecheckone:


                      ii

                                                                                      ml
                                                                                     II


                      ~ Very familiar

                                                                                     !Ul
                                                                                     II
                      1 Somewhat familiar, but not sure of all the details
                    II
                      I Aware, but didn’t know much about it
                        II        II
                      il Not at all aware

                                                                                     lL__J


          If Not at all aware, then please go to section B on Page 2 Otherwise, please continue.


2. From what sources have you heard about the CDP (iurmg the past three years’? Please check all that apply:


      SOURCE	                                                                                       ,: 4

                                                                                                     1



      a. Received advance notice of at least one upcoming NIH Consensus Conference in the mail II

      b. Received at least one NIH Consensus Statement in the mail                                  i

      c. Received at least one NIH Consensus Statement at a CME activity, professional society      r
                                                                                                    II
      meeting, or conference                                                                        ‘~
     d. Heard about the CDP from colleagues within my institution
                                                                                                    E
     e. Heard about the CDP from colleagues at other institutions                                   !1

     f. Read about the CDP in l-4Wl                                                                 ‘1--
                                                                                                    ,---
     g. Read about the CDP in a specialty journal.     Please specitjc

                                                                                                    I

                                                                                                    ,1
     h. Read or saw something about the CDP in the popular media

     i.   Read at least one NIH Consensus Statement in .L4M4                                        y
                                                                                                    ;-

     j. Read at least one NIH Consensus Statement in a specialty journal.     Please speci@:        II

                                                                                                    I

     k. Other.    Please specify:                                                                   Ir
                                                                                                    II





                                                      D-10

3. Prior to receiving this survey, were you aware of the following specific Consensus Statements?       Please check
Yes or No:




       IIb.a. Surgeryfor Epilep~ (March 1990)
              Clinical Use of Botzdinum Toxin (November       1990)
                                                                                          II        I

                                                                                          IL--L
            c. Intravenous Imrnunoglobulin   (May 1990)
       II                                                                                 II        I
       i    d. Adjuvant Thera~ for Colon and Rectum Cancer (April 1990)
       I                                                                                  II        I
       IIe. Early Stage Breast Cancer (June 1990)                                         II        I
            f. GastrointestinalSurgey for Severe Obesity (March 1991)

            g. Treatment of Panic Dtiorder (September     1991)                           H

4. Please list any other specific Consensus Statements of which you are aware:




SECTION B: USE OF NIX-ICONSENSUS DEVELOPMENT PROGRAM INFORMATION

Medicai school CME offices differ in the degree to which they are involved in the seleetion of topics and
development of eurrieula for the CME activities for which they grant credit. In this section, we ask some
questions about how your program operates, and about the use of CDP information at your institution.


1. Does your institution address the following types of topics in CME activities? Please check Yes or No:




                           a. The results of medical technology
                           assessments

                           b. Clinical applications of research
                                                                                          I
                           c. Specialty society practice guidelines/        II    I       II
                           practice parameters

2. Does your CME office play a role in the choice of topics for CME activities for which you grant credit?

                                                        Yes            No




                                                          D-II

3.� Are you familiar with the content of the CME activities for which YOU grant credit?

                                                      Yes            No



        3b. If YES, are you aware of any CME activities sponsored by your institution during the past three
        years that have addressed information from an NIH Consensus Conference?

                                                      Yes            No


                3c. If YES, please list which Consensus Conference (s):




4. How many times in the past three years have you forwarded an NIH consensus Statement to a member of
your CME committee or a member of your faculty for review?

               None           one         2-4 times            5 or more times       Not Sure

        Which Statement (s)?




4. How many times in the past three years has a member of your institution’s faculty or staff approached you
with a recommendation to offer a CME activity addressing a specific NIH Consensus Conference?

               None           One         2-4 times            5 or more times       Not Sure

        Which Statement    (s)?




                                                       D-12

SECI’ION C COMMENTS ON THE CDP

1. The opinions of CME and clinical professionals towards the CDP and towards group judgment efforts in
general may affect the way in which specific recommendations from the Program are received In the following
tabl~ we ask you to answer scweral questions by circling a choice on a four-point scale, where 1 = Vew MUCIL2
= Somewha& 3 = A Utt.le, and 4 = Not at All. If you are unable to answer a question, please circle Not
Applicable &A


 Please rate the degree to which                               VW         ~-           A    Notat         NA
                                                               MudI       what     little   Au


 a. the topics addressedht NIH Consensus(lmferences are               1234                                NA

 timely

 b. the issuesaddressedby the CDP are appropriate for                 1          234                      NA

 resolution through the group judgmentmethod of

 consensusdevelopment

 c. the ConsensusStatements usefullydistill large bodies of           1          234                      NA
 int’orm.’llloll                                                                                          _—
                                                                                                      -
 d. the 2 1/2 day format of the NIH Consensus Conferences             1          234                      NA	
 allows sufficient time to examine and consider the issues	
 in question	

 e. the recommendations of the consensus panels are                   1          234                      NA	
 practical	

 f. the Consensus Statements are sufficiently directive               1234                                NA	

 g. the recommendations are directed towards clinical, not            1          234                      NA	
 just research audiences	

 h. NIH sponsorship of the CDP enhances the credibility of            1234                                NA	
 the Program’s findings	

 i. the topics addressed by the CDP are appropriate for               1          234                      NA	
 incorporation into CME activities	

 j. the format in which the findings of Consensus panels              1234                                NA	
 are presented are useful for CME activities	

2.� Please rate your overall degree of respect for the findings of NIH Consensus Development        Conferences
(circle one):

                   Great         Some             A little       No
                   Respect       Respect          Respect        Respect

                   1             2                3              4




                                                      D-13

SECI’ION D        CME ACmTITES

IIIthis seetio~ we ask how NIH might make tio~tion             from the NIH COIMXMUS
                                                                                   Development Program more
useful for CME activities.

1. Would it be useful if NIH made the following matefials related to consensus Development Program topics
available for your use in CME activities? Please check Yes or No:




                 a. CME curriculum materials for small group settings
            II                                                                   r       I        I
               b. CME      curriculum materials for large group settings
            II                                                                   IL>II
            IIcCME curriculum materials for self-directed study                  II      I        I
            II   d. Videotapes of conference highlights
                                                                                         i        I
            IIe.Videotapesof conferencepress conferences                        ,,       I        I

             g.
            II     Referencx bibliographies
                                                                                (1       I
                 h. Complete listing of past CDP topics


            IIi.
            II                                                                   r       1
                  Other:    Please specify:
                                                                                II       I
2. How else might NIH work with medical school CME offices or facul~. to facilitate the use of Consensus
Development in~ormation in CME activities?




3. Please add any additional comments:




                                                          D-14

SECTION E2 RESPONDENT INFORMATION

In order to better understand the responses to our survey questions, we ask a few questions about your
educational and professional background. This information will be used solely in aggregate, and will be kept
confidential.


Your name:

Your title:



1. Please note your educational degree (s):

2. If you are an M.D., please note your area
of specialty

2.� How long
           . have vou been in the field of C,ME?

3. How long have you been in your current position?




‘I%ankyou for taking time to complete this sunq    we appreciate your assistance. Please return the survey in
the enclosed postage+aid envelope to


                                         HHS/OIG/OEI

                                         Tel:
                                         FAX:




                                                   D-15

    APPENDIX          E

    PUBLIC HEALTH SERVICE
COMMENTS ON THE DW     REPORT




            E-1
      ,,   ...””,,

 /+
                     ‘$
~’
:                            DEPARTMENT OF HEALTH & HUJ}lW SERVICES
;                                                                                                            Public Health Sewi<
 5         -g
 ‘*,
   +%,,”
     >

                                                                                                                    MD 20857~

                                                                                                             Rockville



                                                                    DEC27      1~




                           From:            Deputy      Assistant        Secretag         for Health Management
                                             ‘ Operations
                          Subject:	         Office      of Inspector    General    (OIG) Draft     Report
                                            NIH Consensus        Development    Progrm:                       “The
                                            Findings      Through    Medical   School         Dissemination
                                                                                        Continuing      Education of
                                            Activities,      “ OEI-01-91-01760
                          To :              lnspeczor       General,         OS


                          Attached      are     the     Public      Health      Service    comments     on    the    subject
                          OIG draft       report.          We concur         with   the   recommendations           and   the
                          National      Institutes          of Health has taken or plans to take
                          actions      to    implement       them.




                          Attachment




                                                                             E-2

      PUBLIC HEALTH SERVICE (PHS~ COMMENTSON THE OFFICE OF

          INSPECTOR GENERAL (OIG~ DRAFT REPORT “THE NIH

          CONSENSUS DEVELOPMENT PROGRAM: DISSEMINATION

          OF FINDINGS THROUGH MEDICAL SCHOOL CONTINUING

              EDUCATION ACTIVITIES, ” OEI-01-91-01760



General Comments


The National Institutes of Health (NIH) appreciates the study

performed       by OIG of an important           avenue    for information
dissemination that could enhance the effectiveness of the
Consensus Development Program (CDP). Continuing Medical
Education (WE) was identified in previous                      evaluation    studies
as an important         channel     wi.thi.n   American    medicine     that could be
better    utilized      by the CDP.          The OIG report reaffirms this
observation         and suggests     several     important     steps    that could be
‘-.]<en. ~~-,?:7T::f ~ of:: (-~
                         ----    of  ::2~~:---
                                             .=1 ApplLcat~mM        of Research ‘GO
clarify’’medical treatment issues and inform the community of
practitioners.

OIG Recommendation


1.	   The NIH should take steps to increase awareness of the
      CDP among those  responsible for C14E. NIH should make
      special  efforts to reach those who sponsor continuing
      education for general and family physicians.

PHS Comment


We concur. To promote awareness of the CDP, the Office of
Medical Applications of Research is in the process of
publishing its recently revised and clarified statement of
operating guidelines and procedures.                 The updated procedures
will serve to share the results of NIH~s                growing   experience
with key persons       in the international          community  of health
technology    professionals.       Special      efforts    will be made to
i.dentj.fy leaders     in the CM13community          and make them aware of
the cDP and of lllH’s procedures            for dissemination      of findings.


OIG Recommendation


2.	    The NIH should  identify more effective ways ~of
       encouraging%,the incorporation of consensus findings into
       continuing education activities.

PHS Comment


We concur. NIH will          attempt to icient~fy or create new ways to
adapt their materials         and exploit the CME activities to reach
more practitioners.          In this-process, NIH will solicit ideas

from CME leaders and         other professionals, and will consider




                                           E-3

                                                                                           2,



developing slides, overheads, and other curriculum materials

as suggested in the report.


OIG   Recommendation

3.	    The NIH   should     strengthen       its      efforts      to   understand   and
       address   basic    concerns       about       the    CDP.

PHS Comment      ‘


We agree to continue evaluating the procedures used to
initiate a conference, develop a consensus statement, and

disseminate the results. NIH will also continue its efforts
to evaluate the impact of conferences on medical practice to
&scertair& whic1-Lt~~..esc.f .:cmfesenc’e :G.LCS, zcGt2ment .t~rmats,
and dissemination efforts have the greatest impact. The
concerns expressed by the critical minority       of respondents in
this OIG study will be considered and assessed seriously.


Technical Comment


Paqes 10 to     12.   We suggest  that the report indicate that the
negative   views    of the  CDP that were volunteered by a minority
of respondents, while sincerely held, may be inaccurate or
based on out-of-date information.




                                              E-4

                             APPENDIX                    F

                                         NOTES

1.     National Journal, January 22, 1977, p. 142.

2.	    “An NH-I Overview of a Report of the Council on Health Care Technology of
       the Institute of Medicine on NIH Consensus Conferences,” NIH Coordinating
       Committee on Assessment and Transfer of Technology, February 10, 1992, p. 3.

      The CDP is administered by the Office of Medical Applications of Research
      (OMAR), within the Office of the NIH Director; each Conference is
      cosponsored by OMAR and one or more of NIH’s institutes, centers, or
      diw”sions. Since its inception, OM~   has conducted almost nine~ Consensus
      Conferences on topics across the spectrum oi medicai science and practice.

3.	    The founders of the Program stressed that NIH’s role was to facilitate
       ‘technical consensus’ on medical technologies, which was defined as
       “scientific/medical agreement on the scientific facts that a given innovation is
       deemed optimal and potentially feasible for introduction into practice.” The
      NIH was not to become directly involved in what was termed ‘interface
      consensus’ on issues such as cost-effectiveness, patient preference, or ethics.
      Indeed, NIH administrators expressed a “critical assumption,” that %roadened
      responsibilities [would] ~ draw NIH into activities inappropriate to its primary
      research mission.” Responsibilities of NIH at the Health Research/Health Care
      lnte~ace, Seymour Perry, MD, Office of the Director, NIH, February 1977, p.
      A-4, A-2.

      In 1989, Congress also created the Agency for Health Care Policy and
      Research (AHCPR), within the Public Health Service, to evaluate medical
      technologies and treatments and to develop practice guidelines.

4.	   Guidelines for the Selection and Management of Consensus Development
      Conferences, OffIce of Medical Applications of Research, National Institutes of
      Health, September    1988, p. 3.

      The NIH develops specialized dissemination strategies for individual
      Conferences. Dissemination activities include press conferences; press releases;
      distribution of video highlights of Conferences; coverage in the popular press;
      publication of Statements in both general and specialty medical journals; and
      direct mailing of Statements to physicians, hospitals, medical schools, third-party
      payers, policy makers, continuing medical education programs, and others. In
      addition to maintaining a mailing list of standard contacts, NIH also purchases
      targeted mailing lists from relevant specialty societies and other groups for
      individual Conferences. The NIH does not target medical school department


                                         F-1

       chairs
            asa discrete
                      category(OMAR I)kec,tor
                                            ofCommunications,

                                                           Personal

       CommunicationwiththeOIG, October14,1992).


 5.   Information Dissemination to Health Care Practitioner and Policymakens:
      Annotated� Bibliography, Agency for Health Care Policy and Research
      (AHCPR), Public Health Service, U.S. Department     of Health and Human
      Services, April 1992, p. 1.

 6.   The most prominent of these have been funded by NIH itself, and include:

      Evaluation of the NIH Consensus Development Process, Paul Wortman, Center
      for Research on Utilization of Scientific Knowledge, Institute for Social
      Research, University of Michigan, 1982.

      Changing Medical Practice through Technolow Assessment: An Evaluation of
      ,.le i tii. _Gil>~tCSUS ~evei:jpment Program, Dawd km~ JL3, et w., kind
      Corporation, March 1989.

      Consensus Development at the NIH: Imuroving the Pronam, Committee to
      Improve the NIH Consensus Development Program, Council on Health Care
      Technology, Institute of Medicine (IOM), 1990.

      The OMAR has also conducted several smaller evaluation projects, including
      an examination of the role of medical opinion leaders in the diffusion of
      medical innovations (Expert Panel Meeting Summay      The Role of Medical
      Opinion Leaden in Disseminating Consensus Development Conference
      Recommendations,    January 31, 1989) and a series of focus groups with
      practicing physicians on their attitudes towards the CDP (Physician Focus
      Groups 10 Identifi Strategies for Dikremination of Consensus Development
      Statements, June 1990). The focus group report noted that “more information
      concerning the specific topic of physician awareness and perception of
      [Consensus] statements is needed.” NIH Physicitirz Focus Groups, p. 3.

7.	   Rand, p. 244. The report oversight committee further urged that “reaching
      these primary care physicians should have high priority” (p. x).

      The NIH plans to target generalist physicians and internists in an upcoming
      series of surveys regarding practice patterns and awareness of Consensus
      findings. The NIH will suxvey them regarding every Conference, because “they
      are more likely to be first in contact with patients with the disorder.” OiWIR
      Quick-Launch Physician Practice SurvqY, NIH Clearance Package submitted to
      the Office of Management and Budget (OMB), September 1991, p. 32.

8.	   Rand p. 245, p. 233. The study found that CME courses, conferences, and
      meetings were rated by responding physicians as the most important
      information sources for both finst hearing about and deciding to use a new



                                       F-2

        procedure.Italsonoted    thattheetient   ofpafiicipation
inCMEwas'tthe

        single most important predictor of whether physicians are aware of specific
        conference recommendations” (p. xiii, p. 97).

9.      NIH Physician Focus Groups, p. 9.

 10.    Continuing Medical Education:    A Primer, Alliance for Continuing Medical
        Education, 1992, p. 96.

       Administrators at NIH noted at the time of the CDP’S founding that “medical
       school teaching hospitals and main disease research centers currently represent
       the most effective transfer points for the movement of research knowledge into
       health practice,” and that “any proposed solutions to the dissemination problem
       will have to utilize these strengths already in place.” Perry, appendix A-1, A-3.

       l%e Rand study also determmed that medical schcmis were one of the wo n:cm
       important sources of CME for doctors who were aware of the Program; local
       hospitals were the other most important source (p. 95).

11.    David Kanouse, Rand Corporation,         personal communication   with the OIG,
       October 9, 1992.

12.    Van Harrison, Ph.D., Director of CME, University of Michigan, personal
       communication with the OIG, October 16, 1992.

       The OMAR has identified “opinion leaders” as people holding “positions of
       leadership,” or having “high status title, rank, or office.” The Role Of Medical
       Opinion Leaden, p. 4, 6.

       Rand also found that medical school facuhy members were more likely than the
       average physician to be aware of the Program and were among those most
       likely to first hear about CDP information (p. 72).

13.    Rand, p. 101.

       Everett M. Rogers, Diffusion of Innovations, 3rd cd., Free Press, New Yorlq
       1983, p. 331.

14.    Rand, p. 245.

15.    The impact of CME on physician behavior is a matter of considerable
       controversy. Many researchers have suggested that reimbursement, discipline,
       quality-assurance, and peer-review activities have greater effect on physician
       behavior. This report does not address such questions.

       Furthermore, this report does not explore the issue of getting doctors into
       CME. As an NIH administrator noted at the time of the founding of the

                                          -.

        Consensus Program, “while the results of consensus building should be useful in

        meeting continuing education needs of physicians and other health

        professionals, this process will not resolve the problem of individuals who are

        unable or unwilling to involve themselves in such activities.” Perry, p. 9.


 16.   We asked family physicians about four topics, oncologists about three topics,

       and neurologists about two topics. The topics were surgery for epilepsy, clinical

       use of botulinum toxin, intravenous immunoglobulin, adjuvant therapy for colon

       and rectum cancer, early stage breast cancer, gastrointestinal surgery for severe

       obesity, and treatment of panic disorder. Each of these had been the subject of

       an NIH Consensus Conference held in 1990 or 1991. Members of each group

       were asked only about the Statements that were relevant to their field (see

       appendix A for a listing of the Statements and their audiences).


17.    Of those who reported that their departments’ relevant CME activities had

       we~irulay iitit addressed the Consensus findings, one informed us that the

       activity had been conducted prior to the given Conference; two informed us

       that they were not aware of the relevant Consensus Statement at the time of

       the activity. Several others were unable to say exactly when their relevant

       CME activity had been held, but told us that they would not have incorporated

       the Consensus findings into the activity at any time because they were unaware

       of it, did not agree with it, or did not consider it appropriate for CME.


18.    We did not ask respondents how many people had been reached in these CME

       activities; it would not have been feasible for them to access such information.


19.    These figures are considerably higher than those reported by Rand researchers

       for a sumey they conducted of randomly chosen physicians in all settings (Rand,

       p. 71). The groups that we sumeyed, however, represent key opinion leaders in
       their respective fields. Considering their importance, we regard their level of
       familiarity with the Program as limited. Furthermore, we expect that the level
       of awareness of the Program among physicians in community settings is likely to
       be considerably lower than that of these academic groups.

20.    We also asked department chairs if they were familiar with any additional
       Consensus Statements, other than the 7 in our sample; 72 percent of all
       department chairs (including 72 percent of each specialty group) reported that
       they were not. Only 9 percent were aware of 2 or more additional statements.

21.    These figures may somewhat underestimate total awareness of specific
       Statements and specific recommendations in those Statements, as people
       generally separate the ‘message’ from the ‘messenger’ and forget the latter over
       time. We did not measure awareness of--or conformity to--the specific
       recommendations made by NIH Consensus Panels.

       One family medicine chair with whom we spoke pointed out that NIH may
       have a difficult time gaining name recognition for the CDP because of the


                                         F-4
       recentproliferation
                       ofmedicaltechnology
                                         assessment
                                                  efforts;
                                                        he deseribed

                                                                   the

            ofthesedifferent
       result                                  ofparameters.”

                          programsasa “cacophony


22.   We found wide-ranging opinions regarding the relative value of direct-mailings.

      and journals as vehicles for disseminating CDP information; these reflect, in

      part, differing information habits among doctors. In our interviews, some

      department chairs told us that direct mail was the only way to reach them; they

      miss things published in journals. Others assured us, however, that publishing is

      the only way to get to them; as one put it, “I receive three feet of mail a week

      and throw most of it away unread.”


23.   Of the 82 percent of CME directors who had received at least one Consensus

      Statement in the mail during the previous 3 years, 57 percent had never

      forwarded a Statement to a member of their CME committee or other faculty

      for review.


24.   As would be expected, family physicians were much more likely to have heard

      about the Program or read a Statement in JAMA than were o-ther specialists;

      the reverse was also true with regard to specialty journals (see appendix C,

      table C-3).


25.   Other sources of information about the CDP and specific Conferences

      included:


      Colleagues:   The NIH working group on the role of medical opinion leaders in

      information dissemination predicted that opinion leaders are more likely than

      the average doctor to hear about Consensus recommendations from colleagues

      outside their own institutions. This appears to be more true of oncologists and

      neurologists than of family physicians: Only 15 percent of family medicine

      chairs, but 21 percent of neurology and 33 percent of oncology chairs had

      heard about the CDP from colleagues at outside institutions.


      Popular media;    The popular media was not a major source of information

      about the Program: Only 16 percent of department chairs had heard about the

      Program through the written or print popular media--ranging from 4 percent of

      neurology chairs, to 18 percent of family medicine chairs, to 23 percent of

      oncology chairs.


      Continuing Medical Education: Twenty-eight percent of department chairs

      reported that they had attended a CME activity sponsored by an organization

      other than their own medical school that had addressed the findings of an NIH

      Consensus Conference--ranging from 14 percent of family medicine chairs to 44

      percent of oncology chairs. Of these, 85 percent had attended such activities

      sponsored by national specialty societies, and 30 percent had attended such

      activities sponsored by other medical schools or teaching hospitals (see

      appendix C, tables C-12 and C-13).




                                        F-5

 26.	   The Rand study suggested that video coverage of Consensus Conferences,
        particularly of the press conferences, could be valuable for CME activities
        (p. 245). Our findings do not bear this out for medical school CME programs.
        Video tapes of the press conferences received the lowest rating for usefulness
        in CME, 9 percent. Video tapes of conference highlights received the second-
        lowest rating, 42 percent. A number of respondents noted that they do not
        have the time or desire to sit and watch a video; they prefer either a quick
        summa~ to read alone, or interactive materials to use in a group.

 27.	   Several respondents also recommended more ambitious--and expensive--efforts
        on the part of NIH. In particular, a number recommended that NIH directly
        sponsor, and finance, local CME activities and/or provide visiting speakers.
        One respondent recommended the preparation of case examples and pre- and
        post-tests to facilitate the development of CME programs.
~1-
-0.     ~;i~iety-three
                   percentofthosedepartment   chairs who were familiar
                                                                     withthe

        CDP expressedsome degreeofrespect   foritsfindings--49      voicedgreat

                                                             percent

               ranging
        respect,      from 38 percentoffamily                 to44 percentof

                                               medicinechairs,

        oncologychairs,
                      to65 percentofneurology   chairs.          percentalso

                                                       Sixty-three

               agreedthatNIH sponsorship

        strongly                          oftheprogramenhancesthecredibility

                    (seeappendixC, table C-14, C-15).
        ofitsfindings


29.	    University of Michigan researchers also identified the problem of “selection
        bias” in the choice of Conference topics and panelists as a potential “threat to
        the credibility” of the Program. The comments we received from department
        chairs suggest that their concerns regarding this issue persist.

        Wortman, Paul, et. al., “Do Consensus Conferences Work? A Process
        Evaluation of the NIH Consensus Development Program,” Journal of Health
        Politics, Policy, and Law, vol. 13, no. 3, Fall 1988.

30.	    Even among some specialists in oncology and neurology, there was concern
        about too great a @specialty focus. One radiation oncolo~-st, for example,
        objected to the ‘overrepresentation’ of medical oncologists vs. surgical and
        radiation oncologists.

31.	    One family physician argued that “NIH has to get into the trenches with the
        people who are going to use this information, rather than bypassing them. NIH
        has traditionally been antagonistic towards family physicians, and then it
        wonders why it can’t reach them.”

32.	    Again, we believe that the fact that 69 percent of department chairs do not
        strongly regard the length of Consensus Conferences as adequate may well
        serve as a barrier to greater use NIH Consensus findings in their CME
        activities.




                                          F-6

33.	   Typical comments were: “’consensus’ is not the same as correct,” and “consensus
       is not necessarily equal to state of the art and not necessarily w“dely
       applicable.” As one respondent described this view, “you have one consensus
       and then three months later you have another consensus;” medicine is always in
       a state of flux.

34.	   An oncologist also asked, “can individuals not knowledgeable about the area
       under study truly contribute to consensus development?” Another argued, “the
       information is generally available. Most conferences and clinicians review the
       original data and journal reviews and draw their own conclusions; why should
       an academic clinician care what these non-experts say?”

       Some respondents expressed doubts that any panel could objectively arrive at a

       consensus of opinion that would be adequately grounded in fact. As one

       expressed this sentiment, “the process can be self-serving and represent

       primariiy the vmvpoint of a few individuals with vested interests rather lhan a

       consensus of the scientific community after it has had an opportunity to review

       the data in the scientific, peer-reviewed literature.”


35.	   7%e Physician h Recognition Award:   1991 Information   Booklet, American
       Medical Association, 1991.

36.	   In our survey, 62 percent of department chairs reported that they are vey
       involved in the selection of topics for CME activities; another 32 percent
       reported that they were somewhat involved.    In addition, 52 percent of the
       department chairs who were familiar with the CDP rated the topics addressed
       in Consensus Conferences as very appropriate for incorporation into CME
       activities--ranging horn 38 percent of family medicine chairs to about 57
       percent of both neurology and oncology chairs.

37.	   Although 83 percent of CME directors reported in our survey that their ofllces
       play a role in the selection of topics for CME activities, this role tends to be
       limited. For example, 96 percent of CME directors reported that they were
       familiar with the content of the CME activities for which they grant credit, but
       only 23 percent of these were aware of a CME activity at their institution that
       had addressed findings from a Consensus Conference. This number is much
       lower than that reported by the chairs of individual departments.




                                         F-7

—.—
